<html>
<title> - OUR DRUG CRISIS: WHERE DO WE GO FROM HERE?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
               OUR DRUG CRISIS: WHERE DO WE GO FROM HERE?

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 22, 1999

                               __________

                           Serial No. 106-12

                               __________

       Printed for the use of the Committee on Government Reform








     Available via the World Wide Web: http://www.house.gov/reform

                                 ______





                    U.S. GOVERNMENT PRINTING OFFICE
57-169 CC                   WASHINGTON : 1999






                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                GARY A. CONDIT, California
THOMAS M. DAVIS, Virginia            PATSY T. MINK, Hawaii
DAVID M. McINTOSH, Indiana           CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELEANOR HOLMES NORTON, Washington, 
JOE SCARBOROUGH, Florida                 DC
STEVEN C. LaTOURETTE, Ohio           CHAKA FATTAH, Pennsylvania
MARSHALL ``MARK'' SANFORD, South     ELIJAH E. CUMMINGS, Maryland
    Carolina                         DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
ASA HUTCHINSON, Arkansas             JOHN F. TIERNEY, Massachusetts
LEE TERRY, Nebraska                  JIM TURNER, Texas
JUDY BIGGERT, Illinois               THOMAS H. ALLEN, Maine
GREG WALDEN, Oregon                  HAROLD E. FORD, Jr., Tennessee
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
------ ------                            (Independent)
------ ------


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 22, 1999.................................     1
Statement of:
    Babetts, Jeanette............................................   126
    Berger, Bill, accompanied by Marian Berger; and Michael 
      Johnson, accompanied by Mary Trotter, executive director, 
      House of Hope..............................................     8
    Cook, Colleen................................................   119
    Cooper, Tinker, Orlando, FL..................................   116
    Dyer, David..................................................   128
    Goodwin, Tony................................................   127
    LaBarge, Marjorie J., senior administrator, student 
      assistance and family empowerment, Orange County Public 
      Schools; Mary Trotter, executive director, House of Hope; 
      Larry Visser, president, the Grove Counseling Center; and 
      Scott Perkins, former detective, Chimera Productions, Inc..    88
    Martinez, Bob, former Governor of Florida, former Director of 
      the Office of National Drug Control Policy; Don Eslinger, 
      sheriff, Seminole County, chairman, high intensity drug 
      trafficking area; and Vincent Mazzilli, Special Agent in 
      Charge, Miami field division, Drug Enforcement 
      Administration.............................................    26
    Monroe, Sandra...............................................   126
    Montaiuti, Christina.........................................   125
    Pause, Mackenzie.............................................   118
    Perkins, John................................................   132
    Pischetola, Vito.............................................   128
    Smith, Debbie................................................   133
    Wilensky, Kerry..............................................   120
    Zagorec, Shirley.............................................   131
Letters, statements, etc., submitted for the record by:
    Berger, Bill, prepared statement of..........................    11
    Dyer, David, information concerning methadone................   130
    Eslinger, Don, sheriff, Seminole County, chairman, high 
      intensity drug trafficking area, prepared statement of.....    32
    Johnson, Michael, prepared statement of......................    20
    LaBarge, Marjorie J., senior administrator, student 
      assistance and family empowerment, Orange County Public 
      Schools, prepared statement of.............................    93
    Mazzilli, Vincent, Special Agent in Charge, Miami field 
      division, Drug Enforcement Administration, prepared 
      statement of...............................................    44
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida:
        Additional statements for the record.....................    82
        Drug summit comments of Tom Constantine..................    64
        Prepared statement of....................................     5
    Perkins, Scott, former detective, Chimera Productions, Inc., 
      prepared statement of......................................   106
    Trotter, Mary, executive director, House of Hope, prepared 
      statement of...............................................    98
    Visser, Larry, president, the Grove Counseling Center, 
      prepared statement of......................................   102
    Wilensky, Kerry, article dated November 9, 1998..............   123


               OUR DRUG CRISIS: WHERE DO WE GO FROM HERE?

                              ----------                              


                       THURSDAY, JANUARY 22, 1999

                          House of Representatives,
                            Committee on Government Reform,
                                                   Winter Park, FL.
    The committee met, pursuant to notice, at 10:06 a.m., in 
the Lake Howell High School, 4200 Dike Road, Winter Park, FL, 
Hon. John Mica (chairman of the Subcommittee on Criminal 
Justice, Drug Policy, and Human Resources) presiding.
    Present: Representatives Mica and Ose.
    Staff present: Sharon Pinkerton, deputy staff director, 
Sean Littlefield, professional staff member; Amy Davenport, 
clerk, Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources; and Michael Yeager, minority counsel, Committee on 
Government Reform.
    Mr. Mica. Good morning. I would like to call this meeting 
to order. I am pleased to welcome each and every one of you to 
this field hearing of the Committee on Government Reform of the 
U.S. House of Representatives.
    I am pleased to welcome from California my colleague, Mr. 
Doug Ose, who is also a member of this panel for this field 
hearing. We were to be joined by two other Members, 
Congresswoman Brown from Florida and Congressman Souder from 
Indiana, however, we brought back from Washington a terrible 
head cold and a little bit of flu, but we are delighted that 
Congressman Ose could join us from California today.
    We will proceed with the hearing.
    We are also joined here this morning, representing the 
minority, Michael Yeager, minority counsel. We are pleased to 
have him here.
    I also appreciate the cooperation of our new ranking member 
of the subcommittee, members from the minority side, who were 
just appointed on Wednesday. Congresswoman Patsy Mink from 
Hawaii, who I met with yesterday in Washington, is going to be 
our new ranking member. Unfortunately, she could not be with us 
today, however, she will be joining us in the future and I look 
forward to working with Mrs. Mink on this important 
subcommittee assignment.
    We are also joined by our deputy staff director of the 
subcommittee, Sharon Pinkerton.
    This morning, we will begin the hearing, I will start with 
an opening statement, then yield to Congressman Ose. We will 
also submit any other statements for the record, then we will 
go into our first panel of witnesses who have joined us.
    Again, it is my pleasure this morning to welcome everyone 
to this hearing. I would like to welcome our distinguished 
witnesses and again thank those who have helped make this 
hearing possible today, particularly Don Smith and the staff of 
Lake Howell High School who have accommodated us to hold this 
hearing in a very appropriate setting, and that is this high 
school in our community.
    In central Florida and many other communities of America, 
we are facing an illegal drug epidemic. Illegal drugs have had 
a devastating impact on our communities, our families and on 
those who fall victims to their use. Too often here in central 
Florida, our children are victims of heroin, cocaine and other 
hard drugs. Just recently we have seen incidents where not only 
our children but our law enforcement agencies have been 
affected, even those who are in prison and behind bars now we 
find have access to drugs in our community. So this epidemic 
has reached every corner of our society and our community. That 
is why I have chosen to undertake the chairmanship of the 
subcommittee in Congress that is chiefly responsible for 
oversight of our national drug policy. Until last month, this 
subcommittee was the direct responsibility of our new Speaker, 
Congressman Dennis Hastert who has assumed a very important 
position of leadership and will closely monitor the work of the 
subcommittee.
    Today's hearing is the first in a series of hearings our 
subcommittee will conduct to deal with the drug crisis in 
America. We will hear from those in central Florida and across 
the United States about how drugs affect the communities we 
live in and the people we love. There is no question about it--
we started this campaign in our schools last year, and this 
says it all, drugs destroy lives. It is a simple hard, cold 
fact, and that is why I am personally committed to this fight 
and why I am pleased to be conducting this first hearing in our 
community.
    For the record, the Drug Enforcement Administration 
estimated that drugs snuffed out more than 14,000 American 
lives last year. Most of those individuals were our young 
people. We have seen that here in central Florida. Recent 
reports show the number of deaths from heroin overdoses and 
other hard drugs actually out-pace homicide. Some of you may 
have seen that headline a few weeks past. Central Florida has 
been ravaged by the effect of illegal drugs, there is no 
question about it. Whether you talk to parents, teachers, law 
enforcement officers or those running treatment programs--and 
we will hear from some of those folks today--they will all tell 
you the same thing, we have a very serious problem here in our 
community and across the land.
    Cheap, pure Colombian heroin and hard Mexican drugs, 
together with deadly crack cocaine, methamphetamine and other 
designer drugs are wreaking havoc on the lives of our children 
and our families. These drugs feed into central Florida's crime 
statistics and fray the very fabric of our society.
    I cannot tell you how important I believe this issue is to 
me, and I believe it is also critical to the future of our 
Nation and our very society. That is why I have chosen to start 
this first hearing here at home, and with this and other 
hearings, we will collect the very best answers, the very best 
information, examining what works and what does not work from 
those of you who are on the front lines across America and 
overseas that are in this battle. My hope is to craft 
legislation and adopt measures that will deliver real 
solutions.
    Over the past 18 years, I have seen policies that have 
worked and policies that have failed. Unfortunately, the threat 
today is far more serious than it was 18 years ago when I first 
became involved in this war on drugs, and unfortunately today 
the solutions are even more elusive. As the new chairman of the 
subcommittee, to which the Speaker will look for direction, I 
am committed to finding real answers and effective solutions.
    As an aside, I just returned from a worldwide conference on 
drug abuse and crime in Vienna, Austria just a few days ago. It 
was attended by the head of the United Nations' anti-drug 
effort--his name is Pino Arlacchi--the British drug czar, the 
leaders of the international law enforcement community, 
including being accompanied to the meeting by the head of our 
own United States Drug Enforcement Agency, Tom Constantine. 
That conference was dedicated to molding a new transatlantic 
approach to the heroin and hard-drug crisis. With this, and 
many other international efforts, I believe we can work more 
effectively in the international arena to attack our drug 
crisis.
    Let me say one last word about the enormity of the drug 
threat. These hard drugs, heroin and cocaine especially, come 
primarily from Colombia, Bolivia, Peru, and Mexico. We will 
find a way to stop drugs at their source. I make that 
commitment to you today. With this new assignment from the 
incoming Speaker, it is my hope to enlist the leaders of these 
countries in our anti-drug crusade. The poison that is being 
produced in these nations should not reach the streets of 
central Florida, America or any other nation. I believe that 
with the correct policies and proper funding, we can take a 
four-pronged approach, including eradication, enforcement, 
education, and treatment.
    In the last Congress, I worked to designate central Florida 
as a high intensity drug traffic area, or what is termed HIDTA. 
With that designation, we are bringing every possible resource 
into central Florida to combat illegal narcotics trafficking. 
Today we will receive an update on that effort.
    To begin our planning for the national drug policy for the 
coming year, I met this week in Washington with General 
McCaffrey, who is the head of our national drug policy and also 
our National Drug Czar. I am also pleased to announce here 
today that General McCaffrey is permitting me to publicly 
release--and he is simultaneously announcing it in Washington 
this morning at 10 o'clock--that central Florida will receive 
$2.5 million this year in funding for their HIDTA effort.
    [Applause.]
    Mr. Mica. So I think working together with the Drug Czar, 
with international leaders, with Members of Congress and 
others, we can make this program effective not only in central 
Florida but throughout the Nation. As a Congress, we made some 
progress last year through new legislation and funding for 
anti-drug programs. Congress added hundreds of millions of 
dollars to programs which were as diverse as education and 
treatment and aid to enhancing our enforcement and interdiction 
programs, but much more must be done. The truth, as we will 
hear today from our distinguished witnesses, is that much more 
can be done, and for the sake of our children much more must be 
done. Drugs and America do not belong in the same sentence. 
Illegal narcotics are not an American value, they have no place 
in our society. That is why I am committed as this 
subcommittee's new chairman to stopping the flow of drugs to 
our cities, our towns, our schools, our communities and to 
genuinely educating our young Americans about the great dangers 
posed by drugs to them and to our entire society.
    I thank you for your attention to my opening statement. I 
am pleased now to yield to the gentleman from California, Mr. 
Ose. You are recognized.
    Mr. Ose. Thank you, Mr. Chairman.
    [Applause.]
    Mr. Ose. Let me preface my remarks by saying that central 
Florida and this country enjoys a treasure in having you follow 
Speaker Hastert's tenure as chairman of this subcommittee and I 
am looking forward to working with you closely.
    I come from Sacramento where we also have a drug problem in 
the Third Congressional District. Our particular drug of choice 
is methamphetamine and it is primarily manufactured in many of 
the rural areas in some of the smaller counties of my district. 
The impact of this is that in some of these smaller counties, 
up to and exceeding 75 percent of the county district 
attorney's caseload is directly related to drug use and abuse.
    Long story short, I begged Mr. Burton to let me be on this 
committee. I cannot tell you how pleased I am that you and he 
consented to that. You said something in your remarks, your 
direct quote was, ``we will find a way to stop drugs at their 
source.'' I just want to repeat that, ``we will find a way to 
stop drugs at their source.'' I yield back my time.
    Mr. Mica. Thank you, Mr. Ose.
    Again, we have other members--two other members who planned 
to attend and are not able to be with us. They are at different 
stages of this cold and flu. But without objection their 
statements will be made a part of the record and in order, so 
ordered.
    [The prepared statement of Hon. John L. Mica follows:]
    [GRAPHIC] [TIFF OMITTED] T5953.001
    
    [GRAPHIC] [TIFF OMITTED] T5953.002
    
    [GRAPHIC] [TIFF OMITTED] T5953.056
    
    Mr. Mica.
    We now have our first panel with us this morning in place 
and I am pleased to welcome them. We have Mr. Bill Berger and 
Mrs. Marian Berger. I happened to meet the Bergers at a dinner 
in which they were honored by the Police Athletic League in 
central Florida. The Bergers have taken one of the most 
incredible personal tragedies that any parent could possibly 
experience in losing their son to a drug overdose and they have 
turned it into trying to educate and inform others about the 
dangers of drugs. They are trying to turn their tragedy into 
something meaningful for the young people in our community. I 
was so impressed when they were recognized for their efforts 
that I asked them if they would come and provide testimony this 
morning. So, Mr. and Mrs. Berger, I want to welcome you both.
    We also have Michael Johnson, who is a resident of the 
House of Hope, involved in a private sector program. The House 
of Hope, as many of you know, has been honored both by 
President Reagan and by Governors and others throughout the 
Nation for its efforts to aid those young people. They first 
started out with just young ladies and now they have expanded 
their operation not only from central Florida but beyond our 
borders here, and also in dealing with young men. So they help 
young men and women who have drug problems.
    Now, I will--I see one other person there, Ms. Trotter. She 
is the executive director of House of Hope. You are going to 
testify in the third panel?
    Ms. Trotter. Yes.
    Mr. Mica. Let me explain to you that this is an 
investigations and oversight subcommittee. Those of you who are 
going to testify on this panel, I will ask you to stand and 
swear you in. Will you raise your right hands, please.
    [Witnesses sworn.]
    Mr. Mica. Let it be entered in the record that the 
witnesses testified and have sworn to the oath in the 
affirmative.
    Again, I am pleased to welcome you all. Thank you for 
coming today and offering this testimony for our congressional 
record. I think we will just start off and lead with you, Mr. 
Berger.

 STATEMENTS OF BILL BERGER, ACCOMPANIED BY MARIAN BERGER; AND 
    MICHAEL JOHNSON, ACCOMPANIED BY MARY TROTTER, EXECUTIVE 
                    DIRECTOR, HOUSE OF HOPE

    Mr. Berger. Thank you.
    I would like to thank Chairman Mica and Congressman Ose, as 
well as other members of this subcommittee, and of the panel 
today for the opportunity to share our views on how we think 
drug use is impacting our community and our State and what I 
believe can be done to stop this plague.
    I am sorry to say I am not pleased to be here. The reason I 
am here is because on September 6, 1997, my son, Jason Alan 
Berger, died of a heroin overdose. He was 22. Since that time, 
my wife, Marian, who you will hear from shortly, and I have 
received a shocking education on the widespread use of drugs, 
but specifically heroin, throughout central Florida.
    Over 300 of our son's friends came to his funeral. At that 
time, God gave me the strength to speak at the graveside about 
his life and death. I would like to share a little bit of that 
with you.
    He was a bright, handsome and very popular young man. An 
honor student in school, a student athlete and a young man who 
always made me proud to be his dad. We spent time together. He 
loved to play cards, monopoly, shoot pool on our porch. We swam 
together, took hikes together, raised money for charity as a 
team. I was his soccer coach for 5 years. We had a very 
positive and caring relationship. Jason was my best friend.
    But when he was 15, he broke up with his girlfriend and it 
broke his heart. He was depressed for several weeks, as I 
suppose we have all been at one time in our teenage years, and 
one of his friends repeatedly asked him to try LSD to help him 
get through this terrible time. Although his background and 
character and his family ties all told him no, he finally was 
worn down and gave in, and within a week he became a failing 
student in school. He changed his friends, he lost his interest 
in almost everything but music. Today, I can tell you, these 
are all telltale signs of drug use; then we thought it was just 
a phase.
    He eventually ran away from home and lived in the woods and 
in vacant houses for 6 months. The sheriff's office brought him 
home once. We hired private detectives and they caught him and 
brought him home again, but he continued to run away. He did 
not run away because he was unhappy at home, he ran away 
because he knew how we felt about drugs and he could not 
continue his drug life and still live there.
    When he finally returned, he was able to graduate from high 
school, but he was never a good student again. After years of 
being in and out of trouble, he finally moved back home with us 
after he graduated and worked as hard as he could to rebuild 
his life. He held a job for 5 years and was very proud of his 
work, but instead of being the architect that he always dreamed 
of being, he was a busboy and had no thought of college or 
self-improvement.
    He moved out of our house in August 1997 and he was dead of 
a heroin overdose within 2 weeks. He wanted so much for himself 
in his younger years but drugs robbed the world of a very 
talented, giving human being. Jason did not want to die, but 
drugs took control of his life. He was able to go to work every 
day, fool us at night into thinking he was doing OK and 
function like any other 22-year old, but he was a recreational 
drug user on and off for 7 years and it finally caught up with 
him.
    In his eulogy, I quoted some statistics that Orlando's 
Channel 6 news had broadcast the night before we buried our 
son. According to an independent survey, in 1997, 74 percent of 
Seminole County high school students had either tried, bought 
or sold drugs that year--74 percent; 46 percent of the middle 
school students had the same experience, and over 20 percent of 
all the people that were surveyed, over 20 percent had known 
someone who had died of an overdose.
    What can we do to stop this? People who care must get 
involved. Marian and I spoke to every Seminole County DARE 
graduating class last year sharing our story, but that reaches 
only fifth graders. Middle school and high school students need 
constant reinforcement to stay off drugs. Our son had the right 
foundation, but at 15 there were no formal drug or anti-drug 
programs in place.
    More undercover investigators must be on the street. In the 
Orlando Sentinel last week an article stated that $3 million 
had been allocated for enforcement in central Florida but only 
$1 million had been spent. If the fear of being caught and the 
subsequent penalties were severe enough, why were 74 percent of 
Seminole County high school students involved in drugs in 1997? 
In a casual conversation with my son a few years ago, he said 
that if you knew what to look for, you could buy drugs on every 
corner in downtown Orlando any hour of the day or night.
    The penalty for selling drugs and for killing a user with 
those drugs must be severe. My wife Marian has collected 
newspaper articles relating to heroin since Jason died. We have 
20 articles from the Orlando Sentinel and the Sanford Herald in 
the past year and a half. There was one in the paper again 
today. If you read them closely, you will see a common thread. 
First of all, obviously heroin is newsworthy. Almost all of the 
headlines mention the word heroin. The penalties for selling 
and killing are almost insignificant. Two articles in 
particular show how severe death by heroin is treated. Pushers 
arrested for selling the drugs that killed are indicted for 
first degree murder by grand juries, then released on bonds of 
$5,000, $10,000 and $25,000 respectively, all in these 
particular articles by the same local judge, Judge Allen 
Dickey. I guess I watch too much TV, but I always thought that 
you could not bond out on a capital offense. Congressman Mica 
said that drug deaths have surpassed homicides in central 
Florida; sir, drug deaths are homicides.
    Other common themes in these articles, one in particular, 
is that the same dealers who are being allowed to walk the 
streets almost always are repeat offenders. They go back to 
their high paying jobs as drug sales people because the penalty 
for getting caught for selling or killing with drugs does not 
scare them enough. Sheriff Eslinger and his staff have 
encouraged Marian and myself to stay involved in this fight. 
What they do not know is we have no choice. Jason has pointed 
us to this mission. We will continue to stay in the middle of 
this fight for the rest of our lives, so that his life and his 
death will not be without purpose.
    Some of Jason's friends call on us from time to time, many 
have learned from his mistakes but some continue to flirt with 
death. We cannot be everywhere, we need help.
    Thank you for being concerned enough to ask us here. Please 
help us, and all the relatives and friends who have lost loved 
ones, to stop this senseless loss of one more human being 
because of drugs.
    [The prepared statement of Mr. Berger follows:]
    [GRAPHIC] [TIFF OMITTED] T5953.003
    
    [GRAPHIC] [TIFF OMITTED] T5953.004
    
    [GRAPHIC] [TIFF OMITTED] T5953.005
    
    Mr. Mica. Thank you, Mr. Berger.
    [Applause.]
    Mr. Mica. I would like to now recognize Marian Berger. 
Ma'am, you are recognized.
    Ms. Berger. Thank you.
    A couple of weeks ago Sharon gave us a call at home on a 
Saturday and when I answered the phone----
    Mr. Mica. If we can have those leaving exercise as much 
restraint in talking as possible. Go ahead, Ms. Berger, you are 
recognized.
    Ms. Berger. Thank you.
    As I was saying, a couple of weeks ago I received a call on 
a Saturday morning and it was Sharon calling me from 
Washington, DC. I was like, a call from Washington, very amazed 
here.
    Mr. Mica. Ms. Berger, I am not sure we are not going to get 
an announcement here.
    Mr. Ose. That is the break.
    Mr. Mica. It is just the break. OK, go ahead and proceed. I 
did not want you to be interrupted.
    Ms. Berger. No problem. Anyway, she told me about this 
hearing and asked if either Bill or I would be able to attend 
or if we would like to attend. Well, it did not take but a 
second thought and I told her both of us will be there. A week 
or so later she let us know that what we were going to say 
today had to be in writing, which kind of blew us away because 
all of the talks we have had this past year and 4 months have 
been from the heart and never had to have any notes. We somehow 
managed to put this all down in writing so they could have it. 
So bear with both of us because, as Bill did, and I will too, 
we were reading because we do not want to miss anything. Again, 
thank you for inviting us.
    Before I start, I just wrote down some notes here. I want 
to steal a phrase from John Negri, who is in charge of the DARE 
program in Seminole County. He is the guy that keeps it going. 
He used to say this at the end of my talks when I would talk to 
the DARE graduation classes, and Bill's as well. And he asked 
the fifth graders, he said what do you call it when a spouse 
loses another spouse? It is widow or widower. What do you call 
it when a child loses their parents? It is an orphan. And then 
he said, what do you call parents who lose a child? The fifth 
graders just looked and looked and no one could say anything. 
He said there is nothing that you can say. There is no name for 
it because it is not supposed to happen.
    I am honored to be invited here to this hearing on drug 
abuse and more personally on abuse of heroin. As Bill told you, 
our son Jason died September 6, 1997, 22 years old. He 
overdosed on heroin. The night before, he called his dad and 
was really excited. He had a split-shift that afternoon and 
called him to tell him he received his paycheck from the week 
before and received a double paycheck because he worked double 
time because he wanted money. He gave someone $250 that day to 
put down on a motorcycle. He could not afford a car because he 
had gotten a DUI the year before, and the DUI primarily was 
caused because he was doing drugs and drugs affected the 
alcohol. He felt really good about himself on that phone call. 
He had moved out of the house and he had moved into an 
apartment. He was going to become independent and make us 
proud. Bill told me about that call. He called me--I was out of 
town that afternoon--and he just could not believe the phone 
call. Jason was so excited. He was so happy. Life was really 
going great for him.
    He also asked Bill if he could pick up the extra comforter 
that we had for his new apartment that night. He worked very 
late at the restaurant. It was probably 12 or 1 o'clock before 
he got off. So we left his comforter in the garage and the next 
morning when we awoke, we looked in there and the comforter was 
gone. Later that afternoon on September 6th, Bill and I were 
with friends at a restaurant--and I do not have to read this 
part. My pager went off. I had just started a new job and told 
these folks my pager is on 24 hours a day, 7 days a week. It 
went off and I did not recognize the phone number. I called 
that phone number and it was the Casselberry Police Department. 
The officer on the other end of the phone introduced himself 
and he said I'm sorry, Ms. Berger, I hate to tell you this, but 
your son is dead. I thank God there were friends there with us 
because that was the only way we both made it home.
    Later that afternoon, a Casselberry police officer and a 
CCI officer from Seminole County arrived at our home. They said 
they were at the apartment when the paramedics were there. They 
told us the little that they knew, but they did tell us Jason 
was found on his bed. It was made, comforter on it. Jason 
seldom made his bed at our house when he was living at home, he 
was like, I think, many young people. But that tells you right 
there that he did not want to die that night. If there was only 
beer in that apartment, he would have gone to bed and awoke the 
next day, but there was a drug dealer there that night and that 
drug dealer sold my son heroin.
    Jason, we knew from his confession the year before, had 
tried drugs but now wanted to be free. He wanted to live a 
beautiful, clean life. Heroin is a drug that we have found to 
be recreationally addictive. No one knows when or if they will 
die. When they use it, heroin can kill. Drug dealers need to be 
stopped. These dealers have killed dozens of individuals who 
did not want to die.
    I read in last Sunday's paper the new drug task force has 
arrested over 50 suspects selling drugs and about $1 million of 
the expected $3 million, as Bill said, for 1999 has been 
allocated. With this money available though, I do not 
understand why the article also said that the law enforcement 
officials need more money. This money could bring more manpower 
and bring more arrests. It is obvious that the undercover 
agents can find the dealers. What is stopping the extra 
allotment of money to hire more agents?
    Education is also mandatory. Bill and I spoke to over 2,000 
fifth graders last year at their DARE graduation. We told them 
our story about Jason in hopes that these students, as well as 
their parents, would learn more about drugs and how it kills. 
We also spoke to other groups and hope that these talks have 
saved lives.
    What we really would like to see is more deputies trained 
for the Seminole County Sheriff's Department. If need be, use 
part of the $3 million for this drug enforcement to hire and 
train these deputies to target middle schools. These students 
need to be reminded of what they learned in fifth grade. Too 
much time passes between 11 years old and 15 years old. If all 
this training were enforced when Jason was young, he might have 
learned the danger of drugs. Most parents do not have the 
education necessary to talk to their children about drugs. 
Somehow these teens need to know that when they get upset about 
something, do not let your friend convince you to try a drug. 
This person is not a friend, nor is trying drugs the way to 
solve the problem.
    We have learned much since our son died about how drugs 
change people. Jason even told me after he got out of jail for 
that DUI and on that year's probation and he told us so much, 
he said, mom, you look at someone in the eyes, if they are red 
and the pupils are dilated chances are they are doing drugs. If 
your teen suddenly wants to wear different clothes, they want 
to color their hair, pierce their body or have a totally 
different group of friends, talk to them, investigate the 
changes. Don't think these changes are just a sign your teen 
wants to rebel, the reason may be drugs. Periodically go 
through their book bag, check their room closets, dresser 
drawers and if they have a car, look inside. If they get upset 
because they say you are intruding in their privacy, tell them 
if there is nothing wrong, then it should not matter. You love 
them, you want them safe. It is better to have your teen upset 
with you than dead.
    The last Christmas that Jason was with us, which was an 
incredible time those few months. He was off drugs and he was 
back the way he was many years before, just the most incredible 
laughing fun person. Anyway, he gave us this Christmas card. It 
was a special Christmas card, thanks to mom and dad, and it has 
the usual verse. Hallmark does a wonderful job with their thank 
you's. I would like to read what he wrote in it though, which 
is the most important thing. And he printed in there these 
words, ``I realize I have been a screw-up and not much of a 
family member these past few years. Thank you for always 
supporting me and never giving up hope. I hope I am now in a 
change for the good in giving up my past life. I hope you like 
the dog. It was a gift that I thought will keep on giving. I 
love you guys lots and I am pretty sure Sampson will too. Thank 
you again for everything.'' He did not want to die. When I look 
at Sampson, our dog now that is about 75 pounds and was about 
10 pounds when he gave it to us, I remember even more the love 
that our son has for us, and I know still he has it. I pray 
there will be a way to stop the selling of drugs and other 
parents will not have to go through the pain that we have.
    Since Jason died, we have been invited to speak to many 
groups, interviewed on the news, on TV and quoted in the 
newspaper, received a plaque from the Seminole County Sheriff 
Department for a community service award, received a plaque 
from DARE--from the DARE Association. We received the 1998 
distinguished service award from the Seminole County Police 
Athletic League, been filmed for a part in a TV series on drugs 
that will hopefully be on TV this spring. We will continue to 
talk and do whatever it takes. None of this has brought our son 
back, nor will it ever bring our son back. We only hope that we 
have saved lives and want to save more.
    Thank you for inviting us to this hearing. We need to stop 
the dealers. Thank you.
    [Applause.]
    Mr. Mica. I thank both Mr. and Mrs. Berger for your 
testimony and for your participation as witnesses today under 
very difficult personal circumstances, and also for your 
recommendations.
    I am going to now recognize Michael Johnson. Michael is a 
resident with the House of Hope and involved in some of their 
programs. Maybe you can convey to the subcommittee your 
personal experience. You are recognized.
    Mr. Johnson. I began to use drugs about--you know, whenever 
I was about 12. I just started smoking weed at first. It was 
just what kids were doing. I was in middle school. That is 
where I started at. That was my first time. I got out of 
control because I have got a background of addictive 
personalities and stuff like that. By the ninth grade, I had 
decided I was going to quit school. I knew not to go to harder 
drugs because I've heard stories like these about heroin and 
cocaine and crack and stuff, and then on top of that, I have 
seen the heads that were on the drugs. But it became expensive 
anyway because I wanted to, you know, do the drugs I used all 
the time, so I started stealing. I would like rob people and 
stuff, other drug dealers, then I began to sell drugs. Around 
here in Seminole County--I live in Orange County, but in 
Seminole County around here, it is a very, very big area. We 
lived over in Redline Apartments in a place in Country Lane 
where we stayed at. I mean it is big, it is big stuff. Then 
people would be killing each other too, you know, with the 
selling drugs around here.
    I got involved in it too much and eventually I got caught 
by the police. With no charges they put me in a detox because 
my dad, he said--he knew I needed help because I was stealing 
his money and leaving our house and taking off. They put me in 
detox and then the detox said he needs help. They put me in a 
program, which is a government program, and it could not 
control me and I took off from there. I ran away and went out 
to do drugs more. I ended up catching charges that were going 
to put me in jail. I decided, you know, to think in my right 
mind for one, you know, day at least and decided to go back to 
the program and get help.
    When I got there, I wanted to get help but I could not. I 
could not like, receive it. I do not think--I do not know, it 
was just--what they were offering me was not quite doing it, 
and then on top of that, the kids were bringing heroin into the 
program. I was sitting here in the program trying to get 
straight with three third-degree felonies. You know, trying to 
get off, you know, the street and, you know, have a 
relationship with my father and the rest of my family and stuff 
and it just was not working out.
    The heroin--also, I have such an addictive personality that 
I was hooked on it right away. You know, you can only get so 
much. They could only leave the program for 1 day on a pass and 
they would come back with 10 packs of it. That is $10 worth of 
it. It is just a little bit, you know. And when you get 
tolerance to it, you will start having to snort more. I got 
real addictive, I stole this other kid's in the program and he 
wanted to fight me. That caused me a big problem because I got 
a knife and I was supposed to, you know, fight with this kid 
with the knife. I mean, you know, 16 guys living in a place, 
with us out of control, and all they do is tell you you need to 
quit drugs. They do not tell you--they tell you why, but it is 
all like real sketchy. They give you such a worldly like view 
of why, the reason why society wants you to quit drugs and 
stuff like that. I ended up getting arrested in there with that 
knife and I'm a third degree felony. All I wanted to do was do 
drugs.
    I know where to get heroin around here. I can go get heroin 
right now. I can go get cocaine right now, go get crack right 
now. I can go get any drug you want right now. I am not about 
that any more. I am not saying I am still about that. I was 
ready to go out and do that, then my dad put me in this other 
program because I was--you know, it was very, you know, 
whatever you want to say, evident that I was doing drugs. You 
know, I was whacked and I was showing it because I knew I 
needed help because I was scared. I knew I wanted to go get 
more heroin because I had already gone through the 3-day 
withdrawal. That's why I had the knife because it makes you 
angry whenever you quit. It's really hard to quit heroin. It 
takes like 3 days of just straight sleeping. You do not go to 
school, you do not do anything.
    I came to this Christian program, the House of Hope. To me, 
it is like a correction facility, the House of Hope, because 
they just tell you what you need to know to get off of it. They 
give you all of the information that you need and they counsel 
your family and you. They have been bringing me up. I have been 
off of drugs for 9 months by my own will. I did choose to quit 
and when I get out of the program I can chose to go back to it, 
but now I am so like--I have been taught so much. But see, it 
was not that I was just taught something, I was taught the 
right thing about, you know, my life and stuff and about why I 
am here. I am not here to do crime and sell drugs and just make 
money on this. You know, I am here to serve God and that is 
basically what I have been learning. I can go into detail and 
talk for like 7 hours on what I know. I am kind of being 
rehabilitated, you know.
    Mr. Mica. Michael, we will not give you 7 hours today. 
[Laughter.]
    Just kidding. We appreciate your testimony. Did you have 
anything else you wanted to add?
    Mr. Johnson. Yeah, I do have something I want to add to 
that. She was saying drug dealers, they need to get off the 
street. I used to sell drugs and my best friends sold crack 
cocaine. You know, they drove Lincoln Town Cars. You know, the 
money thing, it's like yeah, we have got money, we are bad. We 
are drug dealers. That is how they will be thinking. What needs 
to happen--see, my charges got dropped. I did not have any drug 
charges because I was smart. She said more investigators out 
there, just nail everybody, just lay them out. I can get away 
with it, you know. I can get away with selling drugs, it is 
not--you do not have to--I was burned to death man, I could 
not--you know, I was in low math and everything in school when 
I went back, and I could get away with selling drugs. You just 
got to have about this much intelligence (indicating) to be out 
there doing that. If you want to take it further, then you will 
be able to sell larger amounts of drugs, pounds and that sort 
of thing.
    I think they need to start--do some kind of little--I do 
not know, some kind of tactical force thing or something. I do 
not know. You know, like come out and just sweep them out, you 
know what I am saying, because it is all over the place. They 
make themselves available too. I mean, I made myself available 
many times and I know--see, I was not--I knew that. My friends 
have been to jail and I knew that you do not go there for a 
long time. You get to kind of escape and learn a little bit 
while you are there, but see, also, I think they need to 
increase, you know, the years that you spend. Then also, when 
you get to the correction facility, make sure that they are 
offering you the right thing, because when they get out they 
are going to go right to the same thing.
    Anyone who is on drugs knows they need help, so you guys 
need to be able to offer the right help and that is what the 
House of Hope is offering me. To me it is a Christian thing, it 
is about Christ, that has been offered to me. The way I 
understand his life to be and how to get off. I do not know 
what you all think about that, but that is what I have got to 
add.
    [The prepared statement of Mr. Johnson follows:]
    [GRAPHIC] [TIFF OMITTED] T5953.006
    
    Mr. Mica. Thank you for your testimony. I am going to start 
a little round of questions here. I will come back to you in a 
second, Michael.
    One of the things I heard you testify to, Mr. Berger, is 
that the disparity in time that is spent in jail, and also 
penalties and bonds for individuals. I think you relayed that 
in your individual case the individual was--I think was 
identified that sold your son drugs. What was the situation 
with his bond or penalty?
    Mr. Berger. It took a year of investigation to arrest him, 
although we had testimony from day one that he had sold the 
drugs and he actually was in the apartment that night and his 
girlfriend testified drugs were under the bed and another user 
was there with him. So it took a year for them to nail down the 
case. A grand jury indicted him for first degree murder; he 
spent 30 days in jail and at a bond hearing he was released on 
$25,000 bond because, according to his attorney, the family did 
not have the ability to pay. The father is a prominent 
attorney. I am really confused about that one.
    Mr. Mica. Has he been tried or is he out now or what?
    Mr. Berger. We are awaiting trial right now.
    Mr. Mica. Awaiting trial, but out on $25,000 bond.
    Mr. Berger. He not only is out on $25,000 bond, the judge 
at the time said he would release him on bond as long as he 
stayed in the home except to go to drug treatments, church or 
work. We since have been trying on a regular basis to determine 
who monitors that and it has become obvious no one does. So he 
is doing whatever he used to do right now as we are speaking.
    Mr. Mica. Ms. Berger.
    Ms. Berger. What they told me--I had called the Victim 
Services--I mean some of the people were at the courthouse that 
day and I said can you find out for me what part of the 
sheriff's, police department, whatever, is supposed to be 
checking on this young man, because that was--I mean it was 
quoted in the newspaper, everywhere, part of the bond was to 
stay at home. This lady that has been talking to me has been 
searching everywhere and this has been 2 weeks. I expected to 
get a call from her yesterday. No one knows, and I am wondering 
who Judge Dickey thinks is checking on this young man and 
keeping him at home instead of out partying and selling more 
drugs. We have heard that sometime in March, the attorneys will 
go back before the judge and find out what date the trial will 
start. So it will not be before April at the earliest.
    Mr. Mica. Well given your terrible personal experience, if 
you were--in fact, you are today advising Members of Congress. 
Where do you think we should best place our dollars as far as 
enforcement, treatment programs, education, interdiction, the 
whole spectrum of trying to get a handle on this. How would you 
approach this based on your experience, Mr. Berger?
    Mr. Berger. I think the first place we have to look is 
additional education at a higher level than fifth grade. Kids 
at the fifth grade--it is a wonderful foundation for no drugs 
in the future, but they are not tempted in the fifth grade. 
Temptation comes when they are 14, 15, 16, 17 years old and 
begin to think of themselves as adults. Drug dealers focus on 
middle school and high school students, but we are educating 
the elementary kid schools. So education in higher grades is 
the first place.
    Second, undercover enforcement is what is going to keep 
kids from selling drugs. Right now, they do it, 74 percent do 
it. This young man right here says he can walk out of here and 
find drugs. I bet you could find it in 2 minutes. They do it 
because they have no fear of being caught, and if they do get 
caught, they have no fear of the penalties, because they are 
juveniles in most cases that are selling it. So as long as the 
penalty for doing the crime is not severe enough or the 
possibility of getting caught is not severe enough, they are 
going to continue to sell drugs. So we need to make first 
degree murder charges first degree murder charges. We need to 
make dealing drugs a felony with automatic jail time and we 
need to have lots of undercover people in the schools and on 
the streets grabbing----
    Ms. Berger. And downtown Orlando.
    Mr. Berger [continuing]. These kids, taking them to jail 
with no possibility of getting back tomorrow to sell drugs 
again, which is where they are right now.
    Mr. Mica. Ms. Berger.
    Ms. Berger. What I also feel about that though, if they are 
arrested and it takes a year to--I mean it takes a year to get 
them arrested, they need to know they need to stay in jail. 
There should be no bond. When the trial comes and if the trial 
and the jury or whomever decide that there is not enough 
evidence to keep them in jail that is one thing, but I cannot 
fathom someone who is arrested for first degree being now on 
the streets waiting again months to see if he is even going to 
be in jail. That has got to stop.
    Mr. Mica. Michael, you have been in, it sounds like, 
several types of programs and your recommendation, as I 
gathered, was to have a program that is tough and meaningful 
but also compassionate. In your case, the secular program did 
not work as well as the faith-based program. You also seem to 
indicate the same thing that the Bergers did, that we need to 
really get tough on enforcement. Now that might mean in your 
case you might have spent some more time in jail or some 
serious jail time. Are you saying that's what we need to do?
    Mr. Johnson. Yeah, but at the time I would not have said 
that. [Laughter.]
    That is the dead truth.
    Mr. Mica. So when there is no enforcement, young people 
think you can get away with it and go back and do it again. 
When the program has a lot of flexibility and laxness and no 
real core, it does not work as well, is that pretty much your 
experience?
    Mr. Johnson. That is exactly what it is.
    Mr. Mica. How old are you?
    Mr. Johnson. I am 17.
    Mr. Mica. And you started when? How old were you?
    Mr. Johnson. Twelve.
    Mr. Mica. Twelve. And it has been 9 months since you have 
been off of drugs?
    Mr. Johnson. Yes.
    Mr. Mica. And what did you use?
    Mr. Johnson. Excuse me?
    Mr. Mica. What drugs did you use?
    Mr. Johnson. Well my favorite drug was weed. I smoked weed; 
I drank lots of alcohol; I ate a lot of pharmaceutical pills, I 
do not know if you know anything about that. I used heroin in 
the program. I smoked crack one time and I did not like it, it 
made me crazy. So I did not do that anymore.
    Mr. Mica. So you have tried a wide range of illegal drugs. 
You also said throughout our community--are all of these--is 
marijuana just available or a variety of all the hard drugs? 
What is available?
    Mr. Johnson. Well, you have got to get deep into it to be 
able to get good drugs. Like, if you are just some kid who just 
wants it, you know, straight off the street, you want to buy $5 
worth of weed, you are surely not going to know where to get 
heroin unless people are just blatantly stupid about offering 
you drugs. That does happen sometimes.
    Mr. Mica. And 9 months ago is the last time you dealt in 
drugs. In talking to your friends and in the program, is there 
much of a change? We put $1 million in here and we have beefed 
up enforcement, have you heard of any change or are we still 
about where we were from talking to your friends?
    Mr. Johnson. I am not really allowed to talk to anyone out 
there, but I know they are still doing the same thing. The kids 
who are out there are oblivious to what is going on right now. 
I think they need to be made aware though. You know, saying we 
are coming to get you. And have people that know what they're 
talking about, who have done drugs, talk to them too because 
they do not--I think they are oblivious to it. I have still got 
friends that I see when I go on passes from the program, they 
come up, Michael, what is up man, what are you doing? You know, 
do you want to come out and chill? It is going down tonight. 
You know, come out to the party and whatever. No, I do not do 
that anymore, man. I sit there and I make them aware myself, 
but they are basically oblivious to what is going on.
    Mr. Mica. Thank you for your testimony.
    I am pleased now to yield to my colleague, the gentleman 
from California, Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Michael, educate me, if you will, you said you could walk 
out of here and quickly acquire drugs. I do not doubt that. 
What do you look for? What are the characteristics of that?
    Mr. Johnson. Well it is about who you know. I can probably 
go on Lake Howell's campus right now and talk to somebody out 
here and get a bag of weed. I think these kids know that 
probably. I do not know if you guys know that. It is not funny, 
it is the truth. I went to Winter Park High School and it is 
drug-ridden. They have got cops in there that search you at the 
drop of a dime if you do one thing wrong. I mean, you know, you 
have just kind of--you have got to get into the scene and that 
is how you become oblivious to reality. You are just in that 
life and you think you are just something bad, you know, but 
you are really not. You are just living waiting to get killed, 
arrested or you are going to quit. Those are your three 
options.
    Mr. Ose. When you buy drugs, are you buying it from an age-
group peer or somebody older, somebody younger or does it vary? 
Somebody who goes to school with you, somebody from another 
neighborhood?
    Mr. Johnson. Well there is not really an age group, like 
big drug dealers do not go to school. Like kids--will be 
pushing whatever, ounces or something--will be in the schools 
doing their work trying to get an education--there is no--it is 
not like you only go to the seniors to buy some dank, if you 
want some dank--you know, sometimes it is sophomores, could be 
freshmen, you know.
    Mr. Ose. Your point is that it is everywhere.
    Mr. Johnson. Excuse me?
    Mr. Ose. Your point is that it is everywhere.
    Mr. Johnson. Yeah, it is everyone and everywhere if they 
have got knowledge of the street, and that is about what it is 
right there.
    Mr. Ose. Mr. and Mrs. Berger, I do not know what to tell 
you. I cannot even imagine what you went through.
    Ms. Berger. Jason, 6 months before he died asked if we 
would pay for a tandem jump for his birthday. He went up in 
those clouds and we could not see anything of that airplane, 
but he came down. This time he is up in those clouds and he is 
not coming down. I do not know--I mean, we do not know--we do 
not know the logistics of things, but those undercover agents, 
they seem to find people. I think we have more headlines of not 
just people dying from it, but headlines of every week an 
undercover agent caught another dealer, another dealer, another 
dealer and another dealer. I mean, these headlines that I have 
kept for a year, a year and 4 months, primarily they are of 
some arrests, and then they are let go, but mostly of deaths. I 
think there need to be more headlines of people being arrested 
and put in jail and this needs to be on a very regular basis.
    [Applause.]
    Mr. Ose. Mr. Chairman, I yield my time back.
    Mr. Mica. Thank you, Mr. Ose.
    I want to again thank the Bergers for coming to be with us 
today and for telling their story and also trying to make some 
meaning and some purpose to your son's life who you have 
tragically lost. By serving in our community, you have been 
recognized for that service. We appreciate your bringing a 
message, information to people who are not hearing that, 
particularly young people, and the rest of the community. I 
know how difficult it must be. Mr. Ose, we are going to hear in 
the fourth panel more parents. We could--unfortunately we could 
fill the stage here with parents who have experienced the same 
tragedy and they will be testifying in our public panel, the 
fourth panel. But again, I thank you for coming out and sharing 
with us your story.
    Michael Johnson, we have scores of Michaels in our 
community unfortunately. Some of them are with us, and we are 
pleased that you are a survivor in this horrible situation. We 
wish you well and we thank you for your courage in coming 
forward and being with us today and relating to the community 
what is going on. Again, you all in this panel only represent a 
sampling of what we are experiencing and how the lives of 
individuals in our community have been affected.
    So with that, I thank you for your testimony and I will 
excuse this panel.
    [Applause.]
    Mr. Mica. I would like to now call the second panel. If the 
witnesses from the second panel could come forward? The second 
panel is entitled Drug Policy and Law Enforcement. Today we are 
extremely pleased and honored to have with us as our first 
witness a gentleman who is not a stranger to anyone in Florida, 
the Honorable Bob Martinez, who is the former Governor of the 
State of Florida. He was also the National Drug Czar, the 
former Director of the Office of National Drug Control Policy. 
He has been a strong warrior in this effort and helped craft 
some of our past State and Federal drug policy. We are 
delighted that he has come over from the west coast where he 
resides now and joined us.
    We are also pleased to have Sheriff Don Eslinger. Everyone 
knows him, of course, as the Sheriff of Seminole County, an 
outstanding law enforcement leader who has also served as 
chairman of the high intensity drug traffic area group. Again, 
this area was designated by Congress as a HIDTA, high intensity 
drug traffic area. We put initial Federal dollars into the 
program last year and we will hear from Sheriff Eslinger where 
we are now.
    We will also hear in this panel Mr. Vincent Mazzilli. Mr. 
Mazzilli is the Special Agent in Charge of the Miami Field 
Division of the National Drug Enforcement Agency.
    So those are our three panelists. I welcome the panelists. 
I also will repeat what I have said to the others, that this is 
an investigations and oversight subcommittee of Congress and 
for that purpose we will swear our witnesses in. If you would 
stand gentlemen and raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. Welcome this morning. We are so pleased to have 
you with us. These panels are not packed to the extent where we 
have to use the 5-minute enforcer, but as you may know from 
previous testimony before panels in Congress, we will allow 
extensive remarks or materials to be added to the record. I am 
pleased first to recognize the Honorable Bob Martinez. Governor 
Martinez, as I said, was our National Drug Czar. We are so 
delighted that you took time to be with us. This high intensity 
drug traffic designation does run from Tampa across the center 
of the State and up through the very core of central Florida. 
As a resident of that community, I know of your concern and we 
know of your tremendous work as our National Drug Czar. So with 
those opening comments and remarks, I am pleased to recognize 
you, Governor, and welcome.

STATEMENTS OF BOB MARTINEZ, FORMER GOVERNOR OF FLORIDA, FORMER 
  DIRECTOR OF THE OFFICE OF NATIONAL DRUG CONTROL POLICY; DON 
 ESLINGER, SHERIFF, SEMINOLE COUNTY, CHAIRMAN, HIGH INTENSITY 
 DRUG TRAFFICKING AREA; AND VINCENT MAZZILLI, SPECIAL AGENT IN 
 CHARGE, MIAMI FIELD DIVISION, DRUG ENFORCEMENT ADMINISTRATION

    Governor Martinez. Congressmen, Mr. Chairman, members of 
the committee, I am delighted to be here at your invitation. I 
want to congratulate you and the committee for making this a 
priority to listen to the community, to listen to those who are 
in fact involved with law enforcement, to get ideas, to 
identify the problems and hopefully to make the necessary 
recommendations that again will make the effort to reduce the 
use of drugs significant in this country.
    As you indicated, I am the former mayor of Tampa where I 
now live, my home city; Governor of Florida and Director of the 
Office of National Drug Control Policy under President George 
Bush. In 1988 while serving as Governor, I created a drug 
coordinator office to work with the citizens of Florida to 
develop a Florida drug policy.
    In addition to my business interests, I am involved in 
numerous community organizations and serve on the boards of the 
University of Tampa, Hillsborough Education Foundation and the 
District VI Juvenile Justice Faith Advisory Council. I say this 
because I remain active with the young people of the State of 
Florida in one fashion or another.
    I know that in recent years we have had tremendous 
discussion about the use of tobacco and what it does to people 
that use tobacco, and certainly it does. I have never smoked in 
my entire life and I know there are long-term consequences for 
use. My concern during this whole period of debate is that 
little was said about the controlled substances. Little was 
said about the danger of cocaine and heroin and marijuana. 
Certainly it has not been, I think, in the news media like it 
should be. And, of course, these are instant lethal 
consequences, not long-term consequences. It can happen any day 
when you overdose. It can happen any day that is a result of 
the use of drugs that you engage in crime. It happens on any 
day the disruptiveness that comes to family units and to 
neighborhoods; therefore, I believe that this is a kind of 
issue that needs to be in the forefront at all times in a very 
visible way.
    It is always hard to talk about law enforcement solely 
because in my view education and prevention works if law 
enforcement works. If law enforcement is not effective, there 
is no way for a message by a parent, by a school or by anyone 
else to take hold because merchants are out there making a 
sale. You have to remember this is a marketplace. You just do 
not get up one morning and say you know what, I am going to use 
drugs. There is someone out there that is making it available. 
There is someone out there that is selling it just like Coca 
Cola sells Coca Cola. It is an organized effort to do so. We 
all know as adults how we can be persuaded to purchase a 
certain type of automobile or go to a certain restaurant or 
whatever it is because of peer recommendation or because of its 
availability. So you can imagine what a youngster who perhaps 
is even more impressionable than we are, when they walk through 
a school building or walk in their neighborhood and are being 
approached openly without consequence by those who sell. So for 
that reason, a key element, I think, is that if law enforcement 
is effective, a chance for stopping first-time use of drugs, 
which is in my mind a very important factor, first-time use of 
drugs. Once you break the barrier, once you use it once, there 
are some quite frankly that get quickly addicted to the 
recurring use of it.
    In the area of law enforcement--and I cannot praise DEA 
enough. I had the opportunity to work with DEA for a good 
number of years; the Customs Department which also carries a 
major effort in the area of drug interdiction; the U.S. Coast 
Guard which continues to work tremendously; the Department of 
Defense with its resources, provides necessary information so 
that DEA and others can carry out their mission. But the 
national policy--there should be a national policy, not a 
Federal policy. By national, I mean it has to include the 
sheriffs of all the counties across this great country and the 
police chiefs and other enforcement agencies that exist in the 
50 States of our Nation. There has to be coordination, the 
sharing of information, the sharing of resources for it to be 
effective.
    Starting with the DEA with its mission of not only dealing 
with core organizations, the heartbeat of the drug trade, the 
business merchants, the ones in charge of going to source 
countries developing the drug, providing for its 
transportation, providing for the laundering of its money. Here 
you can tackle it by going after kilos instead of grams, after 
tons rather than grams. Interdiction is important. Working with 
source countries is extremely important. An unfettered drug 
organization able to manufacture and ship and money-launder is 
going to flood whichever country they target. Intelligence is a 
must, working with the source countries to be cooperative is a 
must. Training their personnel and selecting their personnel is 
extremely important. You know, it is a lot better to know which 
container on a freighter has the drugs than searching through 
500 containers. Have you ever been to a free trade zone and 
looked at the thousands of containers that are there? You can 
send the National Guard, the DEA to search some containers, but 
if someone has not provided you the information on which 
container, the chances of finding it are not quite good. So, it 
has to be beefed, it has to be effective.
    You have to go after the secondary organizations that have 
the single purpose, whether it is to transport, to acquire the 
chemicals required to make coca leaf into cocaine, or in charge 
of enforcement of the system, and when you disrupt, it does 
cost them money. When you disrupt, you do reduce the supply, 
and if you disrupt enough, you drive the price up. If you 
disrupt enough they have to cut its potency, but if you do not 
do that, it is cheap, cheaper than a six-pack of Coke. Any 
elementary child will carry that kind of pocket money. So, it 
is an integrated effort before it gets to the streets.
    When it gets to the streets and the sheriff and all his 
people and police chiefs all across the country have to deal 
with it, now they are doing, you know, house-to-house warfare. 
Now you are dealing with grams, now you are dealing with a 
disruptive neighborhood where people want to move out and 
cannot because nobody wants to buy the house. Where you would 
like to go for a walk but you cannot because you do not feel 
safe. Where outsiders come in because the drug dealers are on 
the street and that's where they come to buy. They may live 20 
miles from that neighborhood, but that is where it is sold and 
that is where it is bought. So who is in jail here? Is it the 
dealer or the people who live there who live behind bars. You 
have seen those neighborhoods and you go by and you see a lot 
of wrought iron bars keeping people out of their homes. That is 
no way to live. It is no way to live when like this youngster, 
I believe his name was what, Michael Johnson, when a career is 
destroyed. So for those who say we spend too much money on law 
enforcement, perhaps we are not spending enough money on 
education, prevention and treatment, not that we are spending 
too much money on law enforcement.
    I think in recent years, the emphasis seemed to me--from 
what little I was able to gather in the media, the emphasis was 
more on treatment. Treatment is important. Effective treatment 
is important, not feel-good treatment. Effective treatment is 
important. But, that is treating the casualties, and they have 
to be treated when you have a casualty, but a good offensive 
reduces casualties and that is education and that is law 
enforcement. That is prevention and that is law enforcement and 
that is what has to work to reduce casualties. I do not think 
we have done enough to do that. Maybe we got complacent because 
we saw numbers were going the right way some years ago and now 
we see numbers are again beginning to spike upward. As early as 
the 1990's, predictions were already out there that heroin was 
going to become a drug of choice, because as they made it pure 
and it became snortable, even associated with a dirty needle, a 
different class of people would access it, and it has happened. 
So now it is not just cocaine, but now it is heroin.
    You know, Mayor Giuliani in New York City has been given a 
great deal of credit for what has happened in New York City and 
rightfully so. I think he has done a tremendous job. He took 
care of small things, cleaning up the streets, picking up the 
litter and cleaning up the graffiti. While that may not be 
glamorous it cleans up an environment and when you clean up an 
environment people are willing to hold it that way. But if you 
walk out of your house every darn day and all you see is the 
drug pushers in the neighborhood, how do you get them to clean 
up their environment?
    So I urge you--and I will be delighted to answer, you know, 
questions--that we go back and put more emphasis on these core 
organizations to be sure they do not flood us with the drugs as 
they have done. That we go after those secondary organizations 
that transport at will and launder the money and support the 
local organizations so that education and prevention has an 
opportunity to take hold before the pusher takes hold. If we 
can do that, I think we can make some progress.
    Thank you, Mr. Chairman and members of the committee. I 
will be delighted to answer questions.
    Mr. Mica. Thank you, Governor. We appreciate your 
testimony. We are going to defer questions until we have heard 
from all of the panelists. I would like to recognize now our 
sheriff, Don Eslinger, who is also head of our local high 
intensity drug traffic designation. Sheriff, you are 
recognized.
    Sheriff Eslinger. Thank you, Mr. Chairman and Congressman 
Ose.
    Late yesterday afternoon I received a fax and I would just 
like to read it, if I may. It says

    Dear Sheriff Eslinger, my wife Mona Tatje has spoken with 
you on occasion about the followup on seeking the individual 
involved with the heroin overdose of our daughter Christina. 
With the Congressional hearing coming up tomorrow, I just 
wanted to say that if I can do anything more or if anything 
more can be done to stop the senseless waste of our youth, 
please make the extra effort. I write this with a broken heart, 
but as a parent and a citizen, I promise to help in any way 
possible to educate parents, youth and whoever will listen. 
This hideous drug is destroying many of our youth in central 
Florida. Sincerely, David Tatje.

    Their daughter Christina was dropped off after she 
graduated from high school in Eustis last year, 1998. A so-
called friend dropped her off at South Seminole High School--I 
am sorry, South Seminole Hospital where she died several hours 
later as a result of a heroin overdose. Many agencies are 
currently working this investigation, including the Central 
Florida HIDTA Heroin Task Force, and hopefully we will have 
results on that investigation.
    As we heard this morning, family and friends of overdose 
victims are shattered by the loss of loved ones. Problems 
associated with drug abuse in our community are far reaching. 
We are all affected and victimized by the presence of illegal 
drugs in our community even though we may not have a direct 
relationship to the abuse or loss of life.
    Congressman Ose pointed out that in the Third Congressional 
District of California, the DA estimates 75 percent of all 
reported crime he is handling is either drug or alcohol 
related. I estimate in Seminole County 80 to 90 percent of all 
reported crimes are directly related to drug and/or alcohol 
abuse. This crisis is adversely affecting the safety and the 
quality of life in our community. Law enforcement 
administrators are seeking innovative and progressive methods 
to deal with this problem. It should be very clear that this 
crisis is not just an enforcement related problem, but rather 
should be our Nation's top social priority. All of us must 
realize that criminal behavior, including drugs and alcohol 
abuse are not just--are symptoms rather of a much more complex 
problem that we are experiencing in our society.
    Kids and adults do not refrain from the use of drugs 
because it is illegal. As Michael testified, they abstain 
because they have made smart choices based on proper values and 
positive family influences. It is a moral choice. There is a 
dilemma that in our government we cannot legislate, regulate or 
mandate proper parental involvement, guidance or even effective 
parenting skills. We should do everything we possibly can do to 
prevent people from ever becoming involved in illegal drugs. 
Our demand reduction strategy should continue to be all 
inclusive. The family, church, school, business community, 
neighborhoods and the entire criminal justice system must 
become more of a positive influence in the lives of our 
children.
    Our newly elected Governor, Jeb Bush, has renewed Florida's 
war on drugs. A counter offensive to eliminate illegal drugs 
and their negative effect on our communities is being initiated 
on four fronts--drug awareness, coordination and leadership; 
drug enforcement; prevention and treatment.
    The first front must be to re-establish a clear, simple, 
consistent and direct message that drugs do destroy lives. It 
is imperative that our communities become more aware of the 
peril caused by the presence of illegal drugs. A State drug 
commissioner, drug action councils and enhanced partnerships 
with the Federal Government is recommended to ensure high 
level, high profile attention to the drug crisis facing our 
State.
    The second front calls for an intensified involvement of 
all entities within the system. There are a number of 
initiatives within the State that will enhance our enforcement 
efforts. In addition to these efforts, punitive sanctions for 
those who choose to engage in this activity must be more 
severe. What Michael and the Bergers were speaking of was a 
State system and they characterized it very accurately. With a 
new Governor and new administration and a new way of thinking, 
bringing back minimum mandatory sentences, this will change. 
The Federal system is totally opposite of that. What a 
deterrent effect--great resource for us to use, and quite 
regularly the local law enforcement and State officials in the 
middle district of Florida use the Federal system and the U.S. 
attorney's office to effectively prosecute those who chose to 
be involved in this activity.
    On two separate occasions, two separate school years, 
members of our organization, undercover agents, attended 
school. We sent three agents to three different high schools in 
two separate school years, and you never know, there may be one 
here today. They yielded over 80-plus arrests. Michael is 
right, there is a total void of consequences relating to that 
activity in this State's system. I have to share with you that 
it is my opinion that there is no difference between a heroin 
trafficker that continues to deal despite the loss of life than 
that of a murderer who places a gun to the head of their victim 
and pulls the trigger.
    The third front focuses on drug prevention. The Governor 
clearly states that the war on drugs is won or lost during the 
formative years of development. Along with a host of other 
community-based prevention initiatives, we must also continue 
to emphasize prevention by establishing drug free schools, drug 
free work places and blocking the legalization of marijuana.
    The fourth and final front involves the treatment of 
substance abusers to interrupt dependency which will reduce the 
demand for our drugs or drugs in our community. Expanded drug 
courts for adults and juveniles, drug treatment and after-care 
for inmates and utilization of proven effective treatment 
processes will result in the need for less drugs within our 
community. Quite simply, without the demand for drugs, the 
supply will be eliminated or at least adversely affected.
    I have to share with you that in 1998 the average age of a 
victim of a fatal heroin overdose victim was 29 years of age. 
The majority of these victims were addicted to the substance. 
Adequate, accessible drug treatment programs are lacking. To 
have any positive effect, this needs to be a priority. I know 
it may not be popular to some, but I have to tell you it is 
important.
    Governor Bush is sending a strong message that our 
comprehensive drug control strategy is a top priority for the 
State of Florida. A drug summit involving leadership from all 
four fronts will be held on February 12th. At this summit, we 
will collaborate to build effective integrated solutions which 
will address all aspects of the drug crisis in our community.
    I ask each of you to look at this process and strategy 
carefully. We would strongly appreciate Federal funding 
assistance be given to implement these critical strategies. I 
also urge you to give serious consideration to adopting these 
initiatives as a national model.
    To further enhance our efforts, I suggest that we better 
utilize existing resources to aggressively seek out the 
trafficker, dealer and those responsible for distributing 
illegal drugs within our community. As well, we should 
encourage more multi-agency initiatives.
    I would like to thank you Congressman Mica for your 
commitment to seek solutions to this crisis and for your 
leadership in the establishment of a central Florida HIDTA. The 
HIDTA enforcement efforts began in June 1998. Currently 26 
agencies are involved in seven different multi-agency 
operations. Collectively, local, State and Federal agents have 
made 938 arrests. Agents have seized 6 pounds of heroin, 74 
pounds of cocaine, 14--a little over 14 pounds of 
methamphetamine, which is a significant problem in the Tampa 
area, over 17,000 pounds of marijuana. They have also seized in 
assets $1.2 million in currency, 32 vehicles and 43 firearms. 
We must continue to assist smaller police agencies so they too 
can join the HIDTA effort. I would ask for your consideration 
to expand the geographical HIDTA designation to include Brevard 
and Lake Counties.
    In spite of this great challenge, I am still optimistic. 
You see, we have allowed an environment to develop in which 
illicit drugs have flourished in our society. One might say 
that we have done this to ourselves. What we have done, we can 
certainly undo. What is very clear is what we do about the drug 
crisis today will determine our future and success for this 
generation and generations to come.
    I want to thank the committee for their time and interest 
in addressing this serious matter. Thank you.
    [Applause.]
    [The prepared statement of Sheriff Eslinger follows:]
    [GRAPHIC] [TIFF OMITTED] T5953.007
    
    [GRAPHIC] [TIFF OMITTED] T5953.008
    
    [GRAPHIC] [TIFF OMITTED] T5953.009
    
    [GRAPHIC] [TIFF OMITTED] T5953.010
    
    [GRAPHIC] [TIFF OMITTED] T5953.011
    
    [GRAPHIC] [TIFF OMITTED] T5953.012
    
    [GRAPHIC] [TIFF OMITTED] T5953.013
    
    [GRAPHIC] [TIFF OMITTED] T5953.014
    
    [GRAPHIC] [TIFF OMITTED] T5953.015
    
    Mr. Mica. Thank you, Sheriff. We appreciate your leadership 
on this issue, it is good to hear from you this morning.
    We are going to suspend questions until we hear from our 
last witness, and that is Mr. Vincent Mazzilli, and he is the 
Special Agent in Charge of the Miami Field Division of the Drug 
Enforcement Agency.
    Thank you for coming, welcome, sir, and you are recognized.
    Mr. Mazzilli. Thank you, Chairman Mica, members of the 
committee. I appreciate the opportunity to appear here today to 
discuss what is our drug problem and our drug crisis.
    Although a wide spectrum of drugs affect the Orlando area, 
I think we all recognize that heroin is the most destructive. 
My comments today will be limited to giving you a brief history 
and an objective assessment of the heroin problem which is 
currently facing not only Orlando, but the United States.
    As many of you are aware, heroin trafficking and abuse is 
not a new issue to law enforcement. The heroin epidemic 
originated in the United States during the 1950's and 1960's 
when 95 percent of the heroin that was smuggled into this 
country entered through New York City. Most of the heroin was 
distributed throughout the United States under control of 
traditional organized crime. In the 1970's, criminal elements 
within the organized crime began to relinquish their control 
and influence over the heroin trade to criminal groups from 
southeast Asia, southwest Asia and the Middle East, who began 
to emerge as the preeminent force in heroin distribution, 
production and trafficking.
    Recently, the heroin market has experienced a familiar 
shift, from the domination of southeast Asian heroin just a few 
years ago, to the increased penetration of the wholesale and 
retail markets by South American criminal organizations.
    In recent years, law enforcement investigations and various 
indicator data that have been collected by law enforcement 
began to reflect that the Nation's largest heroin markets were 
dominated by South American heroin traffickers. During the same 
timeframe, purity of this South American produced heroin was 
reaching record highs. A combination of higher purity, lower 
prices and ready availability has taken a toll on cities such 
as Baltimore, Plano, TX, and our very own, Orlando, FL. Today's 
heroin mortality figures are the highest ever recorded. Close 
to 4,000 people have died of heroin overdoses in each of the 
last 4 years.
    The situation we face today was brought about by a 
strategic management decision made by both Colombian and 
Mexican-based trafficking organizations to increase their 
respective shares in the lucrative U.S. heroin market.
    In the early 1990's, independent traffickers from Colombia 
began to supply retail level outlets for heroin distribution, 
primarily in the northeast cities, with high quality, high 
purity heroin. By supplying heroin dealers with high purity 
heroin to be given away as free samples and by establishing a 
brand name for heroin, in essence marketing heroin, the 
Colombian traffickers quickly gained a foothold in the 
burgeoning heroin markets along the east coast. These 
traffickers in South American heroin have virtually squeezed 
the ethnic Chinese criminal networks out of the market in the 
northeast, by offering not only high purity heroin, at 
competitive prices, but frequently providing easier terms for 
the purchase and payment. Colombian traffickers also began 
using Puerto Rico as a major transshipment area for the 
distribution of their products to places such as Florida and 
Louisiana.
    The use of couriers traveling on commercial airlines is the 
primary means by which Colombian-based groups smuggle their 
heroin into the United States. In the continental United 
States, the principal cities of importation are Miami and New 
York. Couriers employ a variety of means to smuggle heroin, 
which includes the use of false bottom suitcases, body pack and 
internal body carries.
    Once the heroin enters the United States, it is transported 
through a variety of methods, such as domestic flights to other 
areas, private vehicles, trains, buses to reach retail markets.
    With an influx of high purity heroin from South America, 
Orlando and other cities in the United States began to 
experience a dramatic shift in user populations. As recently as 
the early 1990's, the heroin problem in Orlando, as with much 
of the rest of the United States, was typically associated with 
a limited part of the addict population. The introduction of 
high purity heroin to the abuse population has enabled users to 
administer the drug by snorting or smoking rather than 
injection. This has drawn many new users, in particular young 
people, into the use and abuse of heroin. The glamorization of 
the use of heroin by the media has also contributed to the rise 
in its abuse. This has fueled a mistaken belief that heroin 
administered by snorting or smoking is not addictive, nor as 
deadly as intravenous use. This is wrong--heroin-related deaths 
more than doubled from 1990, where the death count was 1,980, 
to 1996, where the death count has risen to 3,980--virtually 
double.
    Colombian-based trafficking groups have successfully 
exploited the existing and highly efficient retail drug 
distribution networks predominantly controlled by the ethnic 
Dominican criminals operating in the northeast. DEA 
investigative reporting and indicator programs have tracked 
this increasing dominance of South American heroin since 1993. 
Reportedly heroin purity in Orlando has reached as high as 92 
percent at street levels.
    Several initiatives have been undertaken by DEA to address 
the problems, which are noteworthy. In February 1997, DEA 
hosted a National Heroin Conference in Washington, DC. 
Attendees at this conference included 300 participants from 
throughout the Nation and around the globe, who gathered to 
address the rising heroin abuse and trafficking trends.
    Additionally, DEA also participated in a regionally based 
conference held right here in Orlando to discuss heroin 
trafficking and abuse. This was in August 1997.
    In addition to the collective efforts of the law 
enforcement community to identify and address the heroin 
epidemic, Congress has also recognized this emerging threat and 
responded with additional resources. Beginning with the 1998 
budget, the DEA has been allotted 268 positions, which includes 
119 special agent positions, all of which are dedicated 
specifically to address the developing heroin situation.
    In response to an increased availability of heroin and the 
high rate of heroin-related overdose deaths in the Orlando 
area, DEA, along with our State and local counterparts, have 
increased our efforts to target, identify and arrest local 
heroin distributors. As a result, the Orlando resident office 
was recently upgraded to a district office status within DEA, 
which will allow it to function at higher levels of efficiency, 
adding an additional five special agents and one intelligence 
analyst. Since 1996, the Orlando DEA resident office has 
tripled the number of heroin investigations.
    In 1998, the Central Florida area was designated as a 
HIDTA, high intensity drug trafficking area, by the Office of 
National Drug Control Policy. In an effort to address the 
heroin problem in Orlando, a heroin initiative was also 
approved. Under the guidance of DEA, a Heroin Task Force Group 
was initiated which is comprised of DEA special agents and 
State and local officers from nine other local enforcement 
agencies. The Heroin Task Force Group's sole initiative is to 
address the growing heroin threat in the six county Orlando 
area. The Heroin Task Force also works cooperatively on a daily 
basis with local drug investigators and homicide detectives to 
investigate and bring charges against groups or individuals who 
provide heroin to a person which causes death or serious 
injury.
    DEA's commitment to the heroin problem continues in other 
ongoing initiatives. The office in Orlando participates with 20 
other DEA offices in cities across the Nation experiencing 
significant heroin problems in what we call the domestic 
monitoring program. This program provides Federal, State and 
local enforcement officials with information regarding the 
nature of domestic heroin trafficking and domestic problems.
    In conclusion, what I would like to say is that drug 
traffickers that control drug production, specifically heroin, 
in the marketing and distribution in the United States know no 
national boundaries. They are not bound by fiscal constraints 
and they utilize the latest technologies and delivery systems 
available to enhance their illicit activities. It is critical 
that intelligence gathering and resulting investigations into 
these monolithic trafficking organizations continue to be 
coordinated and developed to assist us in meeting the challenge 
of this ever-increasing threat.
    Mr. Chairman and members of the committee, I once again 
would like to thank you for inviting me here today and whatever 
questions you have, I will be glad to answer.
    [The prepared statement of Mr. Mazzilli follows:]
    [GRAPHIC] [TIFF OMITTED] T5953.016
    
    [GRAPHIC] [TIFF OMITTED] T5953.017
    
    [GRAPHIC] [TIFF OMITTED] T5953.018
    
    [GRAPHIC] [TIFF OMITTED] T5953.019
    
    [GRAPHIC] [TIFF OMITTED] T5953.020
    
    [GRAPHIC] [TIFF OMITTED] T5953.021
    
    [GRAPHIC] [TIFF OMITTED] T5953.022
    
    [GRAPHIC] [TIFF OMITTED] T5953.023
    
    Mr. Mica. Thank you for your testimony. I would like to 
start with a few questions and I would first direct a few 
questions to Governor Martinez.
    You were head of our National Drug Control Policy Office as 
the Drug Czar under I guess it was the Bush administration, and 
I think if you look at the charts, in those days you at least 
had a gradual decline in some of the use and some of the deaths 
and destruction wrought by illegal narcotics, and I think you 
said that we have changed the policy and started dealing with 
the casualties more just in treatment.
    What happened, in your opinion, and where do we need to 
change that?
    Governor Martinez. I think when in essence you do not have 
an effective demand control, in essence you are sending out a 
message that it is no longer important, it is no longer 
illegal, there are no sanctions, that in essence it will go 
unrecorded and unpunished. In society, often without sanctions, 
compliance will not occur among a certain population. 
Overwhelmingly, American people voluntarily comply with either 
statutory law or a value law--thou shall not kill, so to speak.
    There is a number that no matter what law you pass or how 
hard you try to enforce it, either they are totally unaware of 
the effort or could care less that this is taking place. But 
there is a significant number of people that comply with rules 
and laws based on sanctions. I am sure that if by April 15, 
those who report taxes do not report taxes, there is a 
sanction. And I suspect if you had no sanction, that tax 
returns on April 15 may not be as compliant as they are today. 
I suspect that if the State of Florida did not have sanctions 
for not renewing your driver's license, your auto tag, that 
compliance with that, with a certain part of the population--
not the majority of Floridians or majority of Americans--most 
people want to comply. But the more you, in essence, excuse or 
do not enforce, there is this population group that will creep 
on you doing the wrong thing.
    If in fact, we are not enforcing sufficiently; if in fact 
you are telling the source countries we do not have the 
resources nor the desire to deal with the problem that you have 
got with the organized crime organizations that exist there, 
you are welcome to shift because we are going to take care of 
those who may use it, I think you will aggravate it. And I 
think we have aggravated it. Maybe I will say something that 
you are not able to say, and I am glad to see what Congress has 
done in 1998 by beefing up again. But in my view, if you look 
at the budgetary process used over the last 6, 7 years, I do 
not believe the enforcement side was able to keep up with the 
necessary resources to deal with a multi-national type effort 
with limitless resources and technology to carry out their 
mission. And if you want to reduce the supply, you not only 
need a good supply reduction program--you obviously need a good 
demand reduction program, but you need a good supply reduction 
program like this youngster said, you know, once you fall into 
the culture, you know where to get it. And if it is cheap to 
get, unfortunately you will get it.
    So, I would say this, bring balance to the program. Do not 
say treatment is not important because it is important. Do not 
say demand reduction and prevention and education is not 
important--it is. But you have got to make enforcement as 
important as it used to be.
    [Applause.]
    Governor Martinez. There are laws in the Federal statutes, 
there are laws in the States all over this country. Enforcement 
is part of it. In some cases, toughening the penalties that 
come with the law that is already on the books is important.
    But I will tell you what I think you need more than 
anything else, Congressman, and you are doing this here, you 
and your committee, by being here--it needs energy. The war 
against drugs needs energy, it needs to mobilize again. It has 
to show the parents of these youngsters that somebody cares in 
the place of authority, that for their efforts there will be 
sanctions for those who violate them. And the marches against 
drug use become against something that is not rare and that the 
employers of this country begin going beyond what they have 
already done with the drug-free workplace and the drug-free 
school zones mean something, like getting locked up if you 
violate them.
    So, it is energy that is needed so that people will 
mobilize and they do not feel that this is a lonely effort that 
only my family or my neighborhood is involved in because the 
rest of the Nation is not tied into a system of action.
    I think of all the things that I have said, I believe this 
whole thing of them not having a sufficient pulpit, a 
sufficient energy to drive volunteerism, to drive law 
enforcement to carry out the mission, is what is truly missing 
to make all this work.
    Mr. Mica. Thank you.
    Sheriff, you had recommended the expanding of the Central 
Florida HIDTA to include, you said, Brevard and Lake Counties?
    Sheriff Eslinger. Yes.
    Mr. Mica. Can you tell me why? Also, since we are dealing 
with a limited number of Federal dollars, both that you 
received initially and you are going to get $2.5 million this 
year, is that going to disburse the money over a wider area 
less effectively? Maybe you could tell us your recommendation.
    Sheriff Eslinger. Quite simply, we would like to do Brevard 
County because it is a port of entry, we would like to get 
their agents from those agencies actively involved. Lake 
County, they have a tremendous problem and we also would like 
to provide those resources to them.
    The Heroin Task Force, for example, we need additional 
manpower there and I am certain that we will use the additional 
money wisely there, not only for enforcement efforts relative 
to traffickers and smugglers, but also to assist local agencies 
as liaison agents to the U.S. Attorney's Office for Federal 
prosecution of the individuals responsible for the death of 
these 52 people. That is a quite serious top priority of ours.
    For those two reasons, I would like to see that those two 
additional counties be included in the HIDTA designation.
    Mr. Mica. Thank you. You have had less than a year really 
to deal with the organization of the Central Florida HIDTA and 
also the Federal law and regulations that oversee establishing 
a HIDTA. My colleague and I will go back and see what needs to 
be changed in the law and procedures for HIDTAs as we 
reauthorize the program.
    Also, I am interested in addition to any recommendations 
you have about how that is operated. I am particularly 
interested in have you had the cooperation and is this working 
with Federal, State, local prosecutors, other folks? Is 
everyone working together? So two part question, if we could.
    Sheriff Eslinger. I will address the level of cooperation 
first. I am exposed to a lot of different State and local law 
enforcement organizations throughout the country as a result of 
my involvement with the National Sheriffs' Association as well 
as the Community Policing Consortium out of Washington, DC. The 
level of cooperation between local, State and Federal agencies 
in this area is unparalleled. I have to tell you that it is 
just the best I have ever seen or been a part of or ever been 
exposed to. I can pick up the phone any time day or night and 
talk directly to the heads of the Federal agencies here 
locally, special agents in charge, as well as any of our agents 
and members of other local organizations. They are a tremendous 
resource to us. We have many initiatives that we work together, 
including HIDTA. I have to tell you that as well, the U.S. 
Attorney's Office has been a tremendous resource to us and 
other local agencies for enhanced enforcement and prosecution 
of some of these individuals. It has been remarkable.
    As far as ONDCP, they have been very responsive. We began 
on HIDTA processing January 1998, when the executive committee 
first met. We got on line enforcement-wise probably around June 
1. We started receiving funding in August of last year. The 
level of cooperation between the agencies that are involved--I 
think 26--I would like to make it more inclusive. There are 
approximately 60 to 70 different agencies involved or rather 
are in the HIDTA region currently and I would like to solicit 
more involvement from local agencies. I think we can better 
utilize existing resources if we have the proper mechanism in 
place. As far as ONDCP, they have been very responsive to us.
    From a personal and professional viewpoint, it is a little 
bureaucratic, I guess I am not used to the Federal system like 
many others are who are involved in the process, but they have 
been very responsive to our needs, our questions and we do have 
a good relationship with them.
    Mr. Mica. Are they heavy on the paperwork reporting?
    Sheriff Eslinger. I think--and that is what is missing 
sometimes in a lot of these initiatives, a lack of 
accountability. We need that. You particularly, as establishing 
policy throughout the country--it is one thing giving an agency 
money, but they had better produce when they get that money. I 
think that is awfully important and ONDCP does a good job in 
the accountability area.
    Mr. Mica. And it is not overdone, it is something you can 
live with?
    Sheriff Eslinger. Yes.
    Mr. Mica. OK. I would like to ask about your opinion, I 
think that the Governor has talked about the Giuliani zero 
tolerance policy and we are also seeing some startling 
statistics out of New York City with dramatic drops in crime 
and drug abuse cases. Is that something you think we should 
adopt for the local community or the State? If so, why; and if 
not, why not?
    Sheriff Eslinger. Essentially what the Police Commission in 
New York adopted is a social theory, we have trained all our 
deputies on that same social theory, by the way. But what we 
are talking about is zero tolerance. Zero tolerance, we have 
adopted that policy for any child under the age of 18 that 
knowingly possesses any alcohol or controlled substance, they 
will be incarcerated and transported to our juvenile assessment 
center. All seven municipalities as well in Seminole County 
have adopted that same policy. That sends a clear message that 
we are not going to tolerate it--we are not. But I caution you 
on that, that you have to have a coordinated effort in the 
entire system in order to implement such a program. We have a 
number of punitive sanctions and programs, initiatives, that 
takes care of that--Operation Right Track and a host of others 
that we could work with the Clerk's Office and the State 
Attorney's Office and get these children into those programs, 
those prosecution alternative programs, for those minor 
offenses.
    Governor Martinez began in several different areas minimal 
mandatory sentences, the last administration, Tallahassee 
eliminated the majority of those minimal mandatory sentences, 
and I am certain Governor Bush and the leadership of Senator 
Jennings will bring that issue forward in this legislative 
session. So you will see a significant change in the way that 
the sentencing guidelines are currently structured.
    Mr. Mica. Glad to hear that. I will be testifying or 
participating in the summit next Friday that the Governor has 
called, and also meeting with our delegations, legislative 
delegations, and recommending that we toughen some of the State 
penalties. I think you have expressed, we have heard others 
express that the Federal penalties are tough and we need to 
mirror that at the State level; otherwise, we are going to have 
these folks back out on the street and the penalties are kind 
of meaningless.
    Sheriff Eslinger. Void of consequences. There is absolutely 
no deterrent, which is a certainty of apprehension followed by 
swift and sure punishment, in the State system, it is a void. 
Hopefully this session, you will see a remarkable change from 
that.
    Mr. Mica. Thank you.
    Mr. Mazzilli, the number of DEA agents that we have 
assigned to Florida, how many, do you know?
    Mr. Mazzilli. For the entire State, sir, it is----
    Mr. Mica. I know you are from the Miami Division and you 
cover central Florida, is that correct?
    Mr. Mazzilli. That is correct, sir, we cover the entire 
State of Florida and the Bahamas.
    Mr. Mica. How many folks do you have in that whole--under 
your supervision in that whole area?
    Mr. Mazzilli. The table of organization ceiling calls for 
425 special agents.
    Mr. Mica. And is that adequate to conduct the area that you 
are charged with enforcement responsibility?
    Mr. Mazzilli. Well, sir, we can always use more resources, 
we can do more with more. But we have been able to adequately 
address the problem with the current ceiling of agents that we 
do have on board.
    Mr. Mica. Now with the introduction of the HIDTA, have you 
added agents--what is the complement, if I go back and look at 
the statistics a year ago for assignment in the central Florida 
area versus now, what are we looking at, the same numbers?
    Mr. Mazzilli. Sir, I can speak to what we have on board in 
the Orlando area right now. The Orlando area's table of 
organization calls for 28 special agents. We currently have 
approximately 23 on board. This is complemented by 
approximately 22 deputized State and local officers, they are 
deputized as task force agents working alongside with our 
agents and helping us out in the Orlando area.
    Mr. Mica. Are these--have you been given new positions?
    Mr. Mazzilli. Yes, sir.
    Mr. Mica. And there are five vacancies?
    Mr. Mazzilli. Well, the five vacancies, approximate five 
vacancies, are due to the creation of five new positions in 
Orlando.
    Mr. Mica. But are you able to fill those? What is the 
problem with having five vacancies, is it just because the 
openings have occurred so quickly?
    Mr. Mazzilli. Well, yes, sir, the process takes some time 
to implement the placement of agents at their duty site.
    Mr. Mica. Are you going to take them from the force or are 
you hiring somewhere else in the system? Are you hiring new 
ones? How soon can we expect them to be on board?
    Mr. Mazzilli. Well, the five agents that we will actually 
get in the Orlando area will be additions to the Miami field 
divisions and additions to the Orlando office, and as far as 
how long it will take to bring them into the Orlando area, it 
is usually between 90 and 120 days, 90 at the earliest.
    Mr. Mica. One of our major concerns of course is heroin, 
you also referred to it and we have got our task force on that. 
I am a little bit concerned and we have to give consideration 
that we have only been in operation really since last June, but 
I am not sure if we are making a dent in the quantity of heroin 
that we are seeing on the streets or coming into the area. Now 
the Sheriff did give I think a pretty good rundown, but do you 
think--are you getting an indication that we are impacting the 
quantity or is this--and where are we in stopping this flow?
    Mr. Mazzilli. Well, sir, the initiative of this task force 
to attack heroin is at its infancy. As you know, it was started 
during the summer. Since the summer, the agents and officers 
assigned to the task force have arrested 58 major heroin 
traffickers in the Orlando area. Out of the 58, 11 of these 
defendants were directly implicated with overdose deaths that 
occurred as a result of their drug dealing. So have we made an 
impact? I would say certainly. Do we have a ways to go? 
Certainly.
    What we plan in the near future is to subdivide or even 
possibly form a second group working in this task force to 
attack the heroin problem that will deal exclusively with 
overdose deaths that have occurred from heroin. This will 
enable the other side of this task force group toward 
traditional heroin investigations rather than to divert their 
efforts to work homicide type investigations. So I think we 
will get better efficiency if we can do that and we plan to do 
that in the near future.
    Mr. Mica. Administrator Constantine discussed that you can 
trace almost to the field where the heroin is grown these days 
through technical and chemical analysis. It is still sourced 
out of Colombia, is that correct?
    Mr. Mazzilli. That is correct, sir.
    Mr. Mica. OK, and what is the traffic pattern now? We had a 
lot coming, transitting through Puerto Rico; is that still the 
case or have we--we appropriated pretty substantial dollars to 
put the Coast Guard ring back around Puerto Rico last year. Is 
that having an impact and are we seeing a change in the pattern 
from the source?
    Mr. Mazzilli. I think we are still seeing the majority of 
the heroin that is being trafficked in the Orlando area coming 
through Puerto Rico. Has that increase in resources had an 
effect? Yes, possibly, but it takes time to assess what effect 
additional resources have on a specific program.
    What I will say is that heroin violators, drug violators, 
are a very wily group. If you choke off, for instance Puerto 
Rico, they will look for another avenue to get it in.
    Mr. Mica. How are they bringing it in?
    Mr. Mazzilli. Well, a great deal of the heroin is being 
brought in by couriers, either body carrying it, concealed in 
false bottom suitcases or a very traditional way that they 
bring it in is actually having couriers swallow the heroin and 
actually digest the heroin and later pass it and put it out on 
the market. That is a very, very common way that they do it and 
it is very difficult to detect.
    Mr. Mica. Now some of these folks are coming from Colombia 
and Puerto Rico or the Caribbean region. Do you have enough 
agents as far as language skills to deal with these folks and 
undercover folks? Is there any problem in recruiting people who 
can go after this stuff?
    Mr. Mazzilli. Again, Mr. Chairman, we can always use more. 
Is there a problem recruiting? Because of the standards that we 
have when we recruit, it takes a long period of time between 
the actual recruiting and the backgrounds and the time that we 
hire them. So it does take time. Can we use more? Certainly.
    What I wanted to say before about the Caribbean situation, 
that is a large ocean and the amount of resources that we have 
in that could never really address an ocean of that size. So 
our interdiction efforts have to be based on intelligence. It 
is like fishing for a needle in a hay stack to try to catch a 
freighter in the Caribbean coming toward the United States. We 
have to couple our interdiction effort with good, hard 
intelligence, whether it is from human source or other sources, 
it has to be done that way to be effective.
    Mr. Mica. What about bringing drugs in from other sources 
other than Puerto Rico, could you tell me where else we are 
looking at trafficking patterns, whether it is heroin, cocaine 
or other drugs?
    Mr. Mazzilli. Well, the one area that directly affects 
Florida is the Bahamas. There is a great deal of contraband 
being brought through the Bahamas, and that is a traditional 
route that has been used for decades for drug smuggling.
    Mr. Mica. Are they still using the Jamaican canoes and then 
using the fast boats off the islands?
    Mr. Mazzilli. They will use any combination that your 
imagination would produce. They air drop to boats, they go from 
freighter to go-fast, there are even some instances where they 
have these large ocean-going go-fasts that are able to make it 
to U.S. shores. Your imagination is the only bounds.
    Mr. Mica. One of my emphases--and we worked back in the 
1980's on establishing an Andean strategy, which was to stop 
them at their source and we know that the heroin is coming from 
Colombia, and we know that cocaine is coming from Peru and 
Bolivia, 90 percent of it. Is it a wise expenditure to 
reinstitute those Andean and source-country eradication and 
drug source-country programs?
    Mr. Mazzilli. I think everyone on the panel here today, as 
well as yourself, realizes that fighting the drug problem here 
in the United States has got to be attacked on many fronts, and 
it is as strong or as weak as every link in that front. We have 
spoken about prevention, education, treatment, and it also 
applies to law enforcement. Law enforcement has to attack the 
problem at every level, there has to be a strong initiative on 
every level of the traffic, whether it is the guy down by the 
school yard selling the grams of coke or heroin to the guy--to 
the chemist in Colombia making it up. It has to attack every 
level of the traffic to be effective. If you eliminate just one 
area, you are not going to be effective, whether that is the 
street dealer on the corner--if you allow him to sell, it is 
not going to be effective; or whether it is the chemist in 
Colombia producing it, it is not going to be effective.
    Mr. Mica. Thank you. I will yield now to my colleague, the 
gentleman from California, Mr. Ose, you are recognized, sir.
    Mr. Ose. Thank you, Mr. Chairman.
    Sheriff, when you have people out under cover, I presume, 
buying and arresting, as the days go by, one of the things that 
I have discovered in the short time I have been able to visit 
with various sheriffs is that oftentimes the sheriffs or their 
deputies easily identify the person on the street, they make a 
$1,000 or $2,000 buy--if I understand correctly, they are then 
required to arrest that person and thereby lose the chance to 
go up the chain.
    Sheriff Eslinger. I am not sure if that is the case in 
California, but it is certainly not the case in Florida.
    Mr. Ose. OK, so you have the ability to, if you will, use 
smaller buys to seed the opportunity to get up the chain?
    Sheriff Eslinger. Yes, and it is done, and the objective in 
virtually every undercover case is to identify all source of 
supply connected to that organization.
    Mr. Ose. Has it been successful? At some point, it is a 
huge amount of money that is laid on the table to make a buy.
    Sheriff Eslinger. Yes, that is when we bring DEA in, but 
yeah, we are successful in many areas. But again, it has got to 
take the entire system to send a strong deterrent message. The 
State system in the last 4 years, in our State, the ability to 
have adequate punitive sanctions have dwindled and with this 
new administration, this new session, I think that will turn 
around. We often use the Federal system as a resource in 
certain investigations to assist us in that manner.
    Mr. Ose. One of the other things that has occurred, at 
least in the Sacramento area, is that the district attorney and 
the sheriff have gotten together to create what they call a 
drug court, where all of the cases dealing with drugs go, 
trying to separate them out of the system. Do you have that 
here and has that proven effective?
    Sheriff Eslinger. In certain judicial circuits, there is 
that initiative and that is more the Governor's initiative to 
bring that statewide and make it available to more judicial 
circuits throughout the State of Florida.
    Mr. Ose. What has been the experience?
    Sheriff Eslinger. I understand it is working relatively 
well in some of the larger counties. Governor Martinez may have 
some direct information and knowledge of that.
    Mr. Ose. OK, I appreciate your feedback.
    You know, the criminals that are involved in this--Mr. 
Mazzilli, you probably have a better understanding of this--the 
criminals who are involved in this activity--they are after the 
money--it is not like they are doing it to further capitalism.
    [Bell rings.]
    Mr. Ose. I know it is my turn, so--[laughter]--how 
effective are we at attracting the actual physical cache that 
comes out of these transactions?
    Mr. Mazzilli. I think we are very effective in doing that. 
We have several major initiatives that are currently ongoing 
throughout the United States to track money proceeds, commonly 
called money laundering investigations, and we have been very 
successful in doing that. An example of that is a recent case--
it is not too recent, but recent notoriety of the 
investigation, the Nassie David case where, together with some 
local law enforcement agencies here in the State of Florida as 
well as the Swiss authorities, we were able to seize $190 
million of Nassie David's illegal assets deposited in European 
bank accounts. So, you know, we have had some tremendous 
successes in this arena and we continue to use this method of 
investigation throughout the United States on a national 
effort.
    Mr. Ose. Are there countries of preference, if you will, 
that people who are engaged in this criminal activity use to 
ultimately deposit their ill-gotten gains?
    Mr. Mazzilli. Yes, there are countries that, because of 
their banking laws, enable traffickers to use that particular 
country as a transshipping area for the money through bank 
accounts ultimately to end up in South America where these 
traffickers--where the heads of these organizations live and 
thrive. However, that is not the only way they are getting 
money from the United States market to South America. They are 
actually physically transporting currency out of the United 
States by various different means into the country of origin, 
which in most cases is Colombia and Mexico. So the shipment of 
cash, smuggling cash out of the country, is as much of a 
problem as smuggling drugs into the country. So we are looking 
at that also together with the Customs Service.
    Mr. Ose. I will have to think about that a little bit more, 
but I want to go back to the countries that might serve as the 
depositories for these currency flows. Do we know which 
countries are preferred depositories for such flows and are our 
treaties with

those countries adequate to allow us investigative 
opportunities to identify and recover such funds?
    Mr. Mazzilli. Sir, that is a complicated question that I 
will get into generally today and will provide you with more 
specific information later on. In the past----
    Mr. Ose. Let us do that later on then. If you can briefly 
do that, I don't want to spend the chairman's limited time on 
that--briefly touch on that, if you will.
    Mr. Mazzilli. In the past, the countries of Panama, Belize, 
Switzerland, Liechtenstein, and there are others that do not 
come to mind immediately, have been instrumental in the 
laundering of money. And I do not mean to say that the 
countries themselves or the governments themselves sanction 
money laundering--that is not what I mean to say. But as you 
put it, the country of preference to move money through bank 
accounts, happened to be those countries at the time. Now as of 
late, we have been able--the U.S. Government has been able to 
enter into agreements with these countries to tighten up their 
banking laws and to work with us in investigations to help 
track this down. And I will say it for the last time, the 
trafficking groups are a very wily group. If you shut it down 
in Panama or in Switzerland, they are going to go to either 
another country or they are going to go to another technique to 
get the money out of this country. And that is what they do.
    Mr. Ose. They are still criminals.
    Mr. Mazzilli. That is correct.
    Mr. Ose. I have two other items, Mr. Chairman, if I may.
    I see in this material that I believe in 1996 now under 
Speaker Hastert's direction, that with respect to Colombia, we 
authorized the provision of some helicopters to that country 
for the purpose of going to high elevations and attempting to 
destroy the poppy fields that are there. Those helicopters, if 
I am correct, were delivered in October 1998?
    I look at the numbers in here and I see that we have an 
average of 4,000 heroin deaths a year that have grown from 
approximately 2,000 heroin deaths a year in 1990, so roughly we 
have 1,000 deaths a year on average more now than we had in 
1990.
    Mr. Mazzilli. Roughly 2,000 more.
    Mr. Ose. I know, but over that 7-year period, it increased.
    Mr. Mazzilli. Correct.
    Mr. Ose. I am kind of curious--over 2,000 a year, if you 
take the actual numbers, it is 4,000 additional deaths because 
we could not get those helicopters, for instance, to Colombia 
to spray these fields and kill this crop. Now obviously that is 
not the only source.
    How much money are we talking about having been involved?
    Mr. Mazzilli. I do not know, sir, I really do not know. I 
will have to get back to you with that. A lot of that is not 
handled by DEA field personnel or DEA, a lot of that funding 
for foreign government initiatives against drugs is handled by 
the State Department, sir.
    Mr. Ose. OK. I am told that we have about $100 million to 
do that, so for 4,000 lives, we have now managed in 2 years to 
get a program implemented that will hopefully help save the 
next 4,000. That is like $25,000 a life, so we have been 
delaying this program on that basis--I mean that is the 
consequence? I am asking, I do not know.
    Mr. Mazzilli. I do not know, sir, either. I mean, we really 
do not get involved in that and I would have to defer.
    Mr. Ose. Thank you.
    My last question, Governor, from your experience as the 
Director of the Office of National Drug Control Policy, do we 
know who these people are who get this money, who are at the 
far end of the chain?
    Governor Martinez. You have reasons to suspect based on 
intelligence. Without intelligence, you really cannot confirm. 
You may suspect, but you cannot confirm exactly which bank or 
which company or which group, and whether it is Panama or 
Colombia or Switzerland, whatever, is doing the laundering.
    But I can recall going into Panama and Bogota and all you 
saw were tower cranes under construction.
    Mr. Ose. Official bird of the country.
    Governor Martinez. Yeah. And you wonder how in the world 
could a country of that size, of that wealth, have so many 
high-rise buildings going up at one time. Well, to a drug 
pusher, you can take a loss on a resale, you can control 
construction, transportation, materials and you are dabbling 
out the money in smaller sums and putting it through the legal 
system and then you sell the property at a discount to some 
legitimate realtor perhaps and then it becomes a legitimate 
deal. So there are all kinds of ways of doing it, but you do 
need this information. And at one time, I think we emphasized 
that more.
    You have to get the cooperation of these countries. They 
are sovereign nations and therefore the only ones who can deal 
with another sovereign nation is the U.S. Government. And 
therefore, the carrot and the stick will have to be applied to 
those countries that we know for a fact are producing the 
product that is coming here and killing our young people. 
Either we take an action or we do not take an action. The truth 
of the matter is we know where it comes from, we often know 
which groups of people are involved, engaging in that practice. 
So the question is how is it that we encourage that government 
to do more than they are doing and we gain greater cooperation 
from that government. And I think that is something that needs 
to really be strengthened.
    Often what would happen is that the U.S. policy for these 
countries obviously had more than one issue, it is not just 
drugs, there are other issues, and therefore, there are times 
where you may be asked, well, we cannot do this because we are 
trying to deal with them on this other subject. And if in 
essence we squeeze here on the drug issue, it may somehow 
interrupt or interfere with that other mission, whether it is a 
trade agreement, whatever it may be, that we are dealing with.
    So at some point, you have to say look, this is serious 
enough where it is going to take more than just some other 
issue dealing with one of these countries that is going to 
postpone an action by the United States in terms of enforcement 
and cooperation in that source country.
    But without that cooperation, they are still a sovereign 
nation and we cannot send the DEA with guns out and take over 
the bank. So it has to be done with greater finesse than that, 
greater cooperation, greater persuasion. But it can be done; 
you know, you can trace money, they do it all the time. The 
question is do they have the resources to do more of it and 
when you get to the end of the line, what do you do to that 
person or that bank or that company that has got it.
    Mr. Ose. I know that we got some people in the late 1980's, 
whose names escape me, who were doing this, particularly 
Medellin and Cali. Apparently I am aware that there are 
statutory prescriptions that prevent us from doing this. These 
are our kids, our young people. I do not understand.
    Governor Martinez. I am with you, Congressman. I think much 
more can be done, whether it takes a sitdown with a tougher 
bilateral agreement with each of these countries that in 
essence you have needs, you like to trade with us, you would 
like to sell your products to us, you would like to have 
favored nation status with us; and there is a condition for 
that and the condition for that is we need greater cooperation 
from your government so that that kind of trade does not 
penetrate our borders and therefore becomes, frankly, a front 
burner issue rather than a reserve issue.
    Mr. Ose. Policy decision.
    Governor Martinez. Policy decision.
    Mr. Ose. Made by one person or another, whether they are in 
Congress or elsewhere.
    Governor Martinez. Right. And that is--I will go back to 
what I have said, that at some point publicly, not only by law, 
but publicly it needs to be known in a very vocal and a very 
visible way that this concern of ours with the use of drugs and 
the sale of drugs in the United States is of sufficient 
importance to us that we are going to demand more than we have 
had in the past in terms of cooperation.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Governor, I was involved in the drafting of the drug 
certification law which ties our foreign aid and foreign 
assistance to efforts by countries to eradicate, eliminate 
drugs. If they cooperate, they are certified to be eligible. 
That law has come under great attack in the Congress, some want 
to eliminate it, think we are interfering in the affairs of 
other countries. None of you share that view. That is one 
proposal I think the administration last year floated an idea 
moving the certification by the President to international 
organizations. What do you think about that?
    Governor Martinez. I think we need to seek the assistance 
of all organizations, but I personally believe that the 
interests of the United States is best served by the United 
States and that cannot be jobbed off or contracted out to any 
other body.
    Mr. Mica. So, the Organization of American States should 
not decide which countries get U.S. trade assistance, financial 
assistance or foreign aid.
    Governor Martinez. That is correct, it is still American 
resources that are being sent out as aid and it ought to be 
American policy that makes that decision. And it ought to be 
American decisions as to which countries get the aid.
    Mr. Mica. I am glad to hear your opinion in that regard. 
Sometimes it is a little bit tough keeping some of the tougher 
statutes in place and we are probably going to face that 
challenge again.
    One of the reasons for conducting this hearing is that 
there is a process in law that these countries must be 
certified and the President will act to either certify or 
decertify them, the Department of State makes recommendations. 
That process must be completed by March 1 and report to the 
Congress and the Congress has the opportunity to act after 
that. So it has been important that we start our congressional 
oversight hearings in an expedited fashion here.
    With that, I do have additional questions for the 
panelists, we will have additional questions for both Sheriff 
Eslinger in regard to the effectiveness of our HIDTA, the 
resources that are necessary in the coming year--Sheriff, the 
good news is that we got the award for $2.5 million, the bad 
news is that we now have to start finding out what we are going 
to do for the next year. We are always a little bit behind the 
curve and even though we get into this, we are into this fiscal 
year. So we look forward to working with you and the HIDTA and 
those interested, and we will take under consideration your 
recommendations that it be expanded.
    And we always are most pleased with the response we have 
had from the Drug Enforcement Administration and Tom 
Constantine, the Director, is just a star in this entire effort 
to bring the international and national drug enforcement 
efforts to a coordinated and effective operation. He does an 
outstanding job. He made a presentation which is about half an 
hour at this drug summit I attended with him this past weekend 
and it was absolutely outstanding and I would like to ask 
unanimous consent that the record include the DEA 
Administrator's comments from that record. Without objection, 
so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5953.024
    
    [GRAPHIC] [TIFF OMITTED] T5953.025
    
    [GRAPHIC] [TIFF OMITTED] T5953.026
    
    [GRAPHIC] [TIFF OMITTED] T5953.027
    
    [GRAPHIC] [TIFF OMITTED] T5953.028
    
    [GRAPHIC] [TIFF OMITTED] T5953.029
    
    [GRAPHIC] [TIFF OMITTED] T5953.030
    
    [GRAPHIC] [TIFF OMITTED] T5953.031
    
    [GRAPHIC] [TIFF OMITTED] T5953.032
    
    [GRAPHIC] [TIFF OMITTED] T5953.033
    
    [GRAPHIC] [TIFF OMITTED] T5953.034
    
    [GRAPHIC] [TIFF OMITTED] T5953.035
    
    [GRAPHIC] [TIFF OMITTED] T5953.036
    
    [GRAPHIC] [TIFF OMITTED] T5953.037
    
    [GRAPHIC] [TIFF OMITTED] T5953.038
    
    [GRAPHIC] [TIFF OMITTED] T5953.039
    
    [GRAPHIC] [TIFF OMITTED] T5953.040
    
    Mr. Mica. At this time, since we are running a little bit 
behind time, we will not ask you any further questions 
formally, but we may informally, as we keep the record open 
here, submit some questions to your panelists for your 
response. I want to thank each of you for being with us today 
for your testimony and particularly for your cooperation at 
this very pivotal time as we discuss our new national drug 
strategy. Thank you, gentlemen.
    [Applause.]
    Mr. Mica. If people want to take a break for a couple of 
minutes, we can get the other panel up, just 2 or 3 minutes. If 
the other panelists would come up and allow someone, if they 
need to, to take a quick call.
    [Recess.]
    Mr. Mica. I would like to call, if I may, the hearing back 
to order.
    Our third panel today is entitled Drug Education and 
Treatment. We are pleased today to have Mary Trotter, executive 
director of the House of Hope and I think she sat next to the 
young gentleman that testified in the first panel. We also have 
Scott Perkins, who is a detective, former detective, with us. 
We have Larry Visser, president of the Grove Counseling Center; 
and we have Marge LaBarge, a good friend, and senior 
administrator of the Student Assistance and Family Empowerment 
[SAFE] program, in Orange County Public Schools. Pleased to see 
her back among us today.
    The purpose again of this panel is to assess where we are 
in some of our drug treatment and education programs. We have 
again today the opportunity only for a sampling; however, I 
know we have others who have indicated some interest in 
submitting statements to the record, and without objection, 
that will be so ordered. They can do that and we will keep the 
record open until February 1 for that purpose.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5953.057
    
    [GRAPHIC] [TIFF OMITTED] T5953.041
    
    [GRAPHIC] [TIFF OMITTED] T5953.042
    
    [GRAPHIC] [TIFF OMITTED] T5953.043
    
    [GRAPHIC] [TIFF OMITTED] T5953.044
    
    [GRAPHIC] [TIFF OMITTED] T5953.045
    
    Mr. Mica. With that, I would like--well, let us start with 
Marge LaBarge today. She is one of our--she is not only a 
senior administrator, but a senior worker in this field and 
tireless in her efforts. Marge, welcome and you are recognized.

   STATEMENTS OF MARJORIE J. LABARGE, SENIOR ADMINISTRATOR, 
STUDENT ASSISTANCE AND FAMILY EMPOWERMENT, ORANGE COUNTY PUBLIC 
SCHOOLS; MARY TROTTER, EXECUTIVE DIRECTOR, HOUSE OF HOPE; LARRY 
   VISSER, PRESIDENT, THE GROVE COUNSELING CENTER; AND SCOTT 
      PERKINS, FORMER DETECTIVE, CHIMERA PRODUCTIONS, INC.

    Ms. LaBarge. Thank you. I was afraid you were going to say 
I am a senior citizen, because that is probably true.
    Mr. Mica. We are both getting there, Marge.
    Ms. LaBarge. I would like to thank Congressman Mica, who I 
have a great deal of respect for, and feel that he has been one 
of the foremost Congressmen in doing something pertaining to 
the----
    Mr. Mica. Ms. LaBarge, you might want to pull that mic a 
little bit closer.
    Ms. LaBarge. OK. I would like to thank Congressman Mica and 
also Congressman Ose for being here. I have known Congressman 
Mica for a long time, because I have been involved in fighting 
this battle since 1971. I have given 28 years of my life in 
trying to do something to stop the deaths that we are seeing 
from young--with young people using drugs.
    We are dealing with a very critical issue, an issue that is 
affecting the youth of our community, affecting it to the point 
they are not able and do not have the opportunity to live a 
positive, productive life.
    Two years ago, I, along with others in the community, met 
with members of the Subcommittee on Criminal Justice along with 
representatives and with members from the county commission 
office and city government. We also met with, at that time--and 
I guess still is, sorry--Director of the Office of National 
Drug Policy, General Barry McCaffrey.
    When we met, we asked as a group to see what we could have 
done at a Federal, State and national level to help us impact 
the growing drug problem that is devastating our youth in our 
country. We asked for additional funds for prevention and 
education, because this is where it has to start. The battle 
with drug abuse, as with any other battle, must begin with 
prevention, it must begin in the early years, and it must 
continue all the way through, even into adulthood. It is not a 
one-pronged battle, but it is a battle that we must unite on. 
We asked for additional funding for Safe and Drug Free Schools, 
we asked for additional funding for treatment, for community-
based treatment, we asked for additional funding for law 
enforcement, for DARE programs and for school resource officers 
in our schools to help us. This did not happen. This is 
something that I am coming back today and asking for again.
    I just would like to tell you what my week has been. I 
have, in the last week, had a call from a parent whose 18 year 
old daughter died 3 months ago from heroin, the parent was from 
Mount Dora. I also have been working with another parent whose 
17 year old daughter is in need of treatment for heroin 
addiction. We have an 18 year old student in one of our high 
schools who has already gone through heroin treatment, but is 
now in need of outpatient services. We cannot provide 
outpatient services in our school district, nor can we provide 
the type of support that a heroin addict who is in recovery 
needs.
    I also have been working with another parent, a single 
parent holding two jobs, who was just ripped off by her 30 year 
old son who is a cocaine addict and who before ripping her off 
had charged $10,000 worth of charges on her Visa card, which 
she has to pay because it was done from her home phone.
    Last night I went to bed after working a suicide case, a 
suicide attempt of a 13 year old, and this morning, I was 
awakened at 5 this morning by a parent who said to me, ``I hate 
to wake you up, but my daughter''--and this is a parent in an 
area called Windemere, which is a fairly affluent area--``my 18 
year old daughter has been on a cocaine binge for 2 days. She 
is home with us right now and is asking for help. If I do not 
get her help now, I do not know whether when she comes down, 
will she still want help or will she leave here and then go on 
to continue to use cocaine''--a high school graduate, a college 
student at Valencia Community College.
    I called a detox center to ask them if they would take this 
18 year old right away, this was at 6 a.m., because I was 
concerned that if we did not get her in immediately, then she 
would not still be willing to get help. The detox center told 
me that they were not open until 8 and so we would have to 
wait. Why? Because they do not have enough staff to staff the 
center to be able to get services to a young person when they 
need it.
    And I can tell you, whether it is heroin or any other drug, 
young people will not get the help they need until they realize 
they need the help and they ask for it and want it.
    As we are looking at the problems, it is not just heroin 
that we need to face, it is the problems of dealing also with 
cocaine and also with ecstasy. We have young people in our 
schools who are using ecstasy that is cut with heroin and they 
do not think there is a problem because many of them do not 
believe or realize that heroin is in the ecstasy. We have young 
people who feel that if they use heroin and they snort it, that 
it is not going to hurt them, or smoke it, because all we have 
shown in many, many of our PSAs coming from a national level 
and other levels is someone who is a heroin addict with a 
tourniquet around his arm and is shooting up and is in some 
desolate area where it is not the type of heroin user we are 
seeing today.
    As part of our efforts in Orange County, we have a strong 
zero tolerance for drugs and alcohol policy, as well as 
violence in our schools. This is supported very strongly by the 
Orange County School Board and the Superintendent of Schools. 
We have a strong drug education curriculum program, pre-K 
through fifth grade, that is research-based and has behind it 
the principles of effectiveness. We also, in the programs that 
we have, do talk to young people about the dangers of heroin 
and LSD as well as other types of drugs. We also survey our 
students every other year and as a result of the survey, we 
know what type of programs we need to emphasize, we also know 
what type of problems we have.
    Interestingly enough, a lot of people do not realize that 
the No. 1 reason our students--and we surveyed 5,000 students 
in a 2-year period of time--are saying they use drugs is 
because they want to feel good, not because of their peers, but 
because they want to feel good. And that is a very sad 
statement to make in our society today, that kids have to use a 
drug to get to a point where they feel good.
    The second thing that is very important is when we ask them 
why they do not use, the No. 1 reason they do not use is 
because they do not need it. Young people who feel they are 
focused, they know what they want out of life know many times 
that they need to get by without using drugs. They do not need 
it because they are getting highs in different ways and it is 
not drugs. They second reason they say that they are not using 
drugs is because of religious reasons, and this came up 10 
percent from 2 years ago. And that is a very positive 
statement. They also say they do not use it because of their 
parents and because of education.
    As we go on and look at the surveys, we found out that 25 
percent of our students are not using heroin as an experimental 
drug. This was a decrease from the year before; 25 percent of 
students report that they were not experimenting with heroin. 
This is a very positive statement and it shows that we have 
made a difference in getting the message out. However, 1 
percent of the students reported that they were using heroin up 
to 20 times within a 3-month period. So within our high 
schools, we do have students reporting that they are using 
heroin up to 20 times in a 3-month period. What this tells us 
is that we can make a difference in the front end of education 
with prevention and information programs, but we cannot make 
the difference with a young person who is already addicted. We 
do not have the resources nor should we be held accountable to 
make a difference with a heroin addict or a user who is using 
to the point that what they do need is outpatient treatment and 
residential treatment.
    What we know has to happen and what we feel must happen is 
we must all join together and form campaigns that will continue 
to emphasize the dangers of drugs. I cannot tell you how much I 
respect Governor Martinez and also the campaign that former 
first lady Nancy Reagan did. In the 1980's, when I started out 
in 1971, one of the things that I saw--one of the highlights of 
the work that I have done in the field of treatment and 
prevention and also I was Drug Prevention Coordinator for the 
State of Florida for 2 years, was during the time that Nancy 
Reagan was campaigning against drugs. People laughed about 
``Just Say No'' and red ribbon campaigns, but I can tell you, 
we saw a decrease in drug use during the time that this 
occurred. And we will see it again once we come together and if 
you at a national level and we at a local level and a State 
level, which I believe Governor Bush will do, will come 
together bringing together members of the community, the media, 
law enforcement, the faith communities, schools, business, 
treatment people, health organizations and parents--and parents 
are crucial, crucial, to the success of it, as well as you.
    We must develop a strategic plan that is funded for 5 
years, a plan that is not just here today and gone tomorrow, 
based on the funding grants that come down from Washington and 
from the State of Florida. The strategic plan must include 
short and long-term goals, it must include funding for 
education that mandates, and I say mandate--and this is not a 
popular word for an educator to say, but we must mandate drug 
abuse, drug prevention curriculum, pre-K through 12th grade 
because as it stands now in many school districts, test scores 
and reading and math have taken over to a point that 
curriculums dealing with drug education and violence prevention 
are being pushed aside and not occurring.
    We must also include funding through Safe and Drug Free 
Schools for intervention programs to occur within the schools 
where we can provide support groups for students within a 
school setting and we can bring people in from treatment 
agencies to do programs for students who are in the beginning 
and experimental use of drugs. We must also fund more school 
resource officers and DARE type programs in the schools.
    And I never thought I would live to see the day that I am a 
very strong supporter of bringing in dogs to the schools to try 
to find drugs that are there, as well as undercover agents. 
Last year, the Orange County Public Schools, working with the 
Orange County Sheriff's Department and Captain Scott, who I 
have a great deal of respect for, he is the head of the 
narcotics for Orange County Sheriff's Department, we brought in 
three undercover agents to three of our schools and the good 
news is that they did not find drugs on campus, the good news 
is that they did make a difference in coming in because they 
also were able to tell the principals of the schools areas that 
needed more security. The bad news is no one knew that it 
happened. I believe that if students knew that this could 
happen, it would be a deterrent. It may push the drugs out into 
the community, but it will not leave the drugs in the schools 
where it is easier for students to get.
    Our drug survey also shows that only 1 percent of students 
are saying they are using drugs at school. The majority of the 
time young people use drugs is after school when they are 
latch-key kids or they are just hanging around, and on the 
weekends.
    We also must enforce a policy where law enforcement and the 
school district work together in setting up strategies that 
will continue to support the zero tolerance policy.
    In the area of treatment, we desperately need more 
treatment beds in Orange County, as we do in Seminole County. 
We need beds for our students, our young people who are in need 
of residential treatment, who are 16, 17, 18 years old, as well 
as for the number of heroin addicts who may not have died had 
they been able to get treatment. If you will look at the 
statistics, you will see that the majority of deaths this year, 
unlike 2 years ago, of heroin addicts was from 18 on up, we did 
not have any students die from heroin addiction this year, 
whereas 2 years ago, we had five students who died who were 
honor students, who were student leaders and who came from very 
strong families, very supportive families who were there for 
them.
    As far as law enforcement goes, we need strong services, we 
need strong commitment from law enforcement, which we do have 
but we need funding for law enforcement. Law enforcement must 
be given some more support for community policing as well as to 
do interdiction.
    As we are looking at what you can do, I say to you, I urge 
you, I beg you to increase funding for Safe and Drug Free 
Schools for the United States, making sure that those people 
who are receiving the funding are held accountable. We must put 
in accountability. Programs that are in place in school 
districts, as well as treatment centers, must be research-based 
and must adhere to principles of effectiveness. We can no 
longer afford to put money into programs that are not shown to 
be effective and are not research-based.
    In closing, I would like to thank you for allowing me to 
come before you. I am committed to continuing to do everything 
I can as a parent, as a member of the community, as an 
individual and as a person representing a school district.
    I also want to close by saying that I believe in the 
philosophy, ``By the grace of God go I'' and I never say never, 
because there is no one here in this room that can say it will 
never happen to them. We do not know who it happens to or why 
it happens sometimes, but we do know that it can happen to 
parents, whether they are good parents or they are not good 
parents.
    Thank you again for allowing me to come before you and 
present.
    Mr. Mica. Thank you for your testimony.
    [Applause.]
    Mr. Mica. I would now like to recognize Mary Trotter, who 
is the executive director of the House of Hope, and it is my 
understanding you do not receive any Federal funds.
    Ms. Trotter. We receive no government money at all.
    Mr. Mica. If you could provide us with your testimony, you 
are recognized.
    [The prepared statement of Ms. LaBarge follows:]
    [GRAPHIC] [TIFF OMITTED] T5953.046
    
    [GRAPHIC] [TIFF OMITTED] T5953.047
    
    Ms. Trotter. My name is Mary Trotter, I have been with 
House of Hope for 5 years and I serve as its executive 
director.
    We are a faith-based program receiving no government funds, 
but that does not mean we do not need government help. We just 
look for it in different ways. We recognize the fact that we do 
work in coordination with our school system and need to work--
our 1999 goal is to get more involved in government because it 
is a sad case when out of nine of our current boy residents, 
eight of them have been involved in drugs. Out of our current 
25 girl residents, 22 have been involved in drugs. It is a sad 
thing.
    I had a statistic come across my desk yesterday and this 
came from Family First organization, and it said of the 10,990 
juvenile offenders committed to DJJ last year, 1,189 of them or 
10.8 percent came from two-parent homes. That means that 89.2 
percent came from single-parent homes. That goes right with 
what Marge was saying, the problem may not be in the schools, 
the problem is latch-key kids. So we need to address that.
    But what grieves me more than that is the fact that what 
should be the parents' responsibility, education should be 
first, scholastics should be first in school, but we are having 
to put a drug program to educate children in school--that 
should be a parent's responsibility, and it is not.
    So now we have to look at where we are at and put these 
programs in place to help save the generation that is suffering 
from it, which is our teens.
    One of the things that Michael did not tell you when he 
spoke before you earlier is Michael did not read his testimony 
because of drug damage from acid, Michael still is recovering 
from some residual effect of drugs where he cannot focus very 
long. If he seemed to wander back and forth in his thoughts, 
that is still a result of acid. He is doing much better than 
when he first came in. He would sit at his desk probably about 
2 minutes, in our on-campus school, and now he is actually 
hitting the books again, he is educating himself again. That is 
common with what we see. The reason I sat up here with Michael 
is not because I do not trust Michael, but because our program 
licensing requires us to be a certain distance. Actually this 
is too far, Michael is in the front row, that is too far. But 
more than that, my heart for Michael is, with Michael being 
involved in the drug scene, his life is at risk yet, because of 
all the involvement in robbery and stealing and bad drug deals 
that he did. So my commitment goes beyond what our licensing 
requires, our commitment is to protect him as an individual 
because he is determined to try and make a difference now. He 
is going to begin speaking next month in Polk County at the 
Juvenile Detention Centers there and that is where he is going 
to get involved and that is what House of Hope had realized 
last year and we have a new program in place and I will explain 
that in a moment, that is going to start utilizing the 
graduates of our program to give back part of what they 
received.
    I do believe that what Marge said, that they do not ask for 
help, is true, they do not know that they need it. They really 
believe that they have no other purpose in life and that is one 
thing that House of Hope focuses on, is to try to teach them 
that they do have a purpose in life, they were created for a 
purpose, they were not created just to attend parties all the 
time, as fun as it may have seemed. None of our families 
escapes this. I would love to sit here and say because I am in 
a drug prevention program, drugs has not been a reality in my 
family--it has. I have one nephew in prison, I have one in 
juvenile detention right now and another one that I do not even 
know really where he is, he is on the streets. So it hits all 
of us.
    I have been in the business now for 5 years, I know all the 
right things to do, but there is a stronger influence that hits 
them. Our biggest frustration as a program, and we did not 
realize this until we started phase three of our program last 
year, and that was how uneducated we really were to what was 
going on on the streets today. Our counselors go meet their 
criteria, every day they are updating their education, but by 
the time it hits the textbook, it is too late, that is not what 
is actively going on in the street.
    It was just by a chance coincidence that I happened to see 
a segment on the news where Scott Perkins, who is going to be 
speaking later--they did I believe it was like a 5-minute flash 
on one of our local news scenes and in preparation for phase 
three of our program, my husband caught my attention and said 
we need him to come to House of Hope to educate your staff. So 
I contacted Channel 9, I believe it was, and then we got ahold 
of Scott.
    Scott came and talked to our parents, it made an incredible 
difference. We knew nothing about GHB and I believe in north 
Florida, it was GHB. We knew nothing about the kind of drugs 
that were being served at the Raves. He had infiltrated the 
Raves, so he had this information. This is not the education 
that our counselors receive when they go to meet their 
requirements.
    This is a very important position and I believe that where 
the funding could benefit programs that are faith-based like 
ours that do not receive government funds is part of the local 
government could take on someone like Scott, with knowledge 
like that. House of Hope would host it and have all of the area 
programs get to come and have their education renewed for 
street education. He went into detail and I will let him do his 
own speech, but he will probably tell you about the disguising 
of drugs. We had no idea about that.
    The reason we needed to know that is phase three of our 
program, the Last Wave, is going to be an alternative to the 
Raves that are still in so many lives. And our teens that have 
gone through our program and are committed to take back what 
was stolen from them, and that is the drug free life, are going 
to be the ones that go in and actually minister to their peers, 
if you will. They are going to go in and they are going to say 
this is not the right life. Come over here, we can still have 
fun, we still have games, we still have music, we still have 
videos, we have updated technology, but we can do it drug free. 
But to be able to do that, we needed to know what drugs were 
out there and what drugs were actually causing the problem.
    Mr. Mica. Thank you. We will withhold questions until we 
finish. I would like to now recognize, if I may, Larry Visser, 
who is the president of the Grove Counseling Center; also 
involved in--whoops.
    Mr. Visser. Technical difficulties.
    Mr. Mica. Cannot wreck the equipment, Larry.
    Mr. Visser. Sorry, I am a mechanic at heart.
    Mr. Mica. Well, we are pleased to have you testify, and I 
would like to recognize you at this time.
    [The prepared statement of Ms. Trotter follows:]
    [GRAPHIC] [TIFF OMITTED] T5953.048
    
    Mr. Visser. Thank you. I would like to thank Congressman 
Mica personally and publicly for taking the chairmanship of 
this committee. It can be very tiring and frustrating work out 
here in the front lines. I was having one of those days when I 
heard that you had taken this chairmanship, and I know that 
there were other opportunities that you had to forego to do 
this and I really appreciate the personal commitment that you 
have made by doing this; and thank you also, Congressman Ose.
    In its 1997 assessment of central Florida human service 
needs, the Heart of Florida United Way found that substance 
abuse was the No. 1 concern of all three of its major informant 
groups. We all saw the report in the Sentinel last week about 
the fact that heroin deaths in Orlando have reached an all time 
high in 1998. Nearly 50 percent of teenagers identified drugs 
and drinking as the biggest problem facing their generation.
    Teens in our own treatment programs caution us that 
students do not respond very honestly to formal surveys and 
from their own personal experience, they tell me that out of a 
typical class of 30 students, about 15 students use drugs and 
alcohol regularly and probably 5 or 6 are in trouble with 
drugs.
    Although our rhetoric is tough on drugs, our culture is 
much too soft. We do not walk the talk. I do not mean to offend 
anyone in particular, so I will offend each of us equally. All 
too often we hear stories from teens in our treatment programs 
about using drugs with parents or with parents of a friend, of 
coaches who allow substitutes to drop clean urines for dirty 
athletes, of club operators who are forewarned of police raids, 
middle and high school students with far too much unsupervised 
time on their hands; and yes, even of drug treatment 
professionals who use drugs themselves. It does not escape any 
of us.
    The costs to society are well documented and overwhelming. 
The cost effectiveness of education and treatment are equally 
well documented.
    A 5 year followup study recently done in Washington State 
found that after receiving substance abuse treatment, 
individuals incurred only half as much Medicaid expense as 
others who needed substance abuse treatment but did not receive 
it.
    Numerous studies have documented remarkable decreases in 
drug use, criminal activity, high risk sexual behaviors, 
unemployment and other problems as a result of drug treatment.
    Researchers agree that for every $1 invested in education 
and treatment, there is a return of $7 to $10 to society.
    Our own data locally show that at 12 months post-discharge, 
70 to 80 percent of our treatment completers are still drug 
free, crime free and either employed or in school.
    Accountability has grown to the point that we routinely 
track results on over 120 different performance and outcome 
measures for various funding sources.
    The Physician Leadership on National Drug Policy has 
determined that drug dependence meets the criteria for a 
treatable, chronic medical condition in terms of 
diagnosability, heritability, and response to treatment. 
Addiction treatment outcomes are comparable to those associated 
with other chronic illnesses. Comparisons of medical and 
behavioral compliance reveal that addicted patients have 
compliance and remission rates comparable to patients receiving 
treatment for other chronic illnesses such as diabetes, asthma 
and hypertension. And yet public policy continues to be 
dominated by criminal models of addiction.
    Ironically, the growing body of evidence on the 
effectiveness of education and treatment has done little to 
increase public confidence or investment in them.
    According to the National Household Survey on Drug Abuse 
nearly two-thirds of people needing drug treatment do not 
receive it.
    There is not a single detoxification bed located within 
Seminole County. You heard from Marge how difficult it is to 
find a bed in Orange County.
    In spite of waiting lists, we have had to reduce the 
capacity of our own adolescent residential program this year 
from 28 to 20 beds due to the lack of funding.
    The available drug treatment and capacity in our local 
jails, detention centers and commitment facilities only reaches 
the tip of the iceberg. You hear stories from many teens about 
teens and adults who wait a long time under lock and key before 
they are able to access treatment.
    Until your announcement this morning, Congressman Mica, we 
have not seen the first dollar spent on treatment or prevention 
as a result of our designation as a high intensity drug 
trafficking area. We hope that you will use this opportunity to 
begin to integrate treatment and education into the formula.
    In order to put a team of 15 prevention specialists in 
schools and community centers around Seminole County, we have 
had to patch together 7 distinct funding sources plus 
donations. Each has its own set of outcome measures and 
reporting requirements, each has its own expiration date. It is 
a real challenge to keep the initiative going. We could use 
twice as many prevention specialists.
    To counter the insidious nature of alcoholism and drug 
dependence, our prevention and treatment strategies must 
address every opportunity to reach those affected and those at 
risk. Progress will depend on Federal leadership in the 
following areas.
    First, expansion of substance abuse prevention, treatment 
and research through Safe and Drug Free Schools program, the 
Substance Abuse Block Grant, and Knowledge Development Grant 
programs.
    You heard it from the Bergers this morning, I will say it 
again; for many students, their recollection of drug prevention 
is the DARE program in fifth grade and an annual drug awareness 
week thereafter. We need to be far more aggressive in the 
middle and high schools with drug education, life skills 
development, family education and supervised activities. We 
need to do a better job of coordinating treatment programs with 
academic programs and vocational training and transitions to 
work.
    The second area of recommendation is the elimination of 
discrimination against individuals with alcoholism and drug 
dependence by making sure that Federal policy affords the same 
protections and benefits afforded to individuals with other 
disabilities.
    Third, improvement of treatment compliance rates by 
expanding the funding of drug courts and providing incentives 
for welfare recipients, drug offenders and others who 
participate in treatment and submit to urine monitoring.
    Fourth, removal of barriers to treatment and research 
resulting from the public stigma associated with substance 
abuse and ignorance of its medical etiology.
    I think we have heard a number of examples this morning 
about how drug abuse--and it is not just the stereotype, it is 
not just the stigma, it affects all of us.
    Fifth, and very important, is I think the unification of 
strategy across interdiction, law enforcement, treatment and 
education at both the national and local levels, to better 
coordinate initiatives and resource allocation, which is far 
too fragmented at present. I think we have a uniquely close 
cooperation here in Seminole County and in central Florida 
among treatment programs, schools and law enforcement, but even 
in Seminole County, there are so many different things going on 
that it is often hard to keep track of what is on first and 
what is on second.
    Most importantly in my mind, the Federal Government can 
play a role in mobilization of leadership from all segments of 
our culture in a sustained initiative to reduce attitudinal and 
behavioral tolerances to substance abuse. We need to bring 
parents, ministers, teachers, policemen, doctors, entertainers 
and all of us together in dialog and have us stand side-by-
side, shoulder-to-shoulder and take a stand personally, 
everyone in his own life, everyone amongst his peers, that we 
are not going to tolerate this.
    Substance is a biopsychosocial issue, it is not just a 
legal issue, it is not just a medical issue, it is not an 
economic or moral problem, it is all of those and more. We 
cannot legislate it away, although legislation will help. We 
cannot buy our way out of it, although funding will help. We 
cannot medicate it away, although medical research and 
treatment will help. We need tenacious intolerance, driven just 
as much by laws as by the innate parental instinct that places 
the wellbeing of children above all else.
    Thank you.
    Mr. Mica. Thank you, Larry. And again, we will withhold 
questions. We have one other witness, our final witness on this 
panel is Mr. Scott Perkins and I think he is also an author, I 
see his publication, ``Drug Identification Designer Club Drugs 
Quick Reference Guide.'' We are pleased to have you with us 
today and recognize you.
    [The prepared statement of Mr. Visser follows:]
    [GRAPHIC] [TIFF OMITTED] T5953.049
    
    [GRAPHIC] [TIFF OMITTED] T5953.050
    
    Mr. Perkins. Thank you, Congressman. Thank you for allowing 
me this opportunity to address the committee.
    I was involved in drug enforcement from 1991 to 1998. 
During that time, I was assigned to the Orlando Police 
Department's Undercover Drug Division and SWAT Team. I was 
dedicated to fighting the war on drugs and received several 
awards for my efforts, including being named narcotics officer 
of the year for the State of Florida. My career ended as a 
result of a gunshot wound sustained during the successful 
rescue of two small children who were taken hostage by a drug 
user and murderer. I traded my career that day in exchange for 
the children's lives. However, I was able to stop the suspect 
from killing the baby girl.
    My focus is now on drug education. It is apparent that the 
United States is 5 to 7 years behind on drug education. Our 
Nation has been inundated by a new wave of designer and club 
drugs. These drugs are being consumed by an astronomical amount 
of young Americans and can be found in every school, nightclub 
and Rave event throughout the United States. The one place you 
will not find these drugs is in the current curriculum of our 
drug educational programs. Parents, law enforcement officers 
and educators must be able to advise and educate others on 
ecstasy, GHB, Ketamine, crystal meth, heroin, Rohypnol and LSD. 
These are the most commonly abused drugs in our school and 
social activities. Parents are advised to talk to the children 
about drugs, which is great. However, we fail to educate these 
parents on what to say and how to recognize obvious indicators 
of drug use. Parents must know that Vicks inhalers, bottles of 
water and baby pacifiers, among items, are all used as drug 
paraphernalia, along with bags of skittles, tootsie rolls and 
bottles of bubbles are used to transport and sell various 
drugs. Being familiar with such terms as ``landing gear'', 
``poly drug abuse'' and ``rolling'' may enable a parent to save 
their children's life.
    The majority of parents, law enforcement officers and 
educators do not know these drugs and their indicators. 
However, I do know that the youth majority knows exactly what I 
am talking about. They, along with others throughout the United 
States, are confronted with these drugs on a daily basis. Drug 
dealers assure these individuals that these drugs can be 
consumed safely and will produce a wonderful high. I am here to 
testify that the people are listening to the drug dealers and 
consuming a variety of designer and club drugs.
    While working undercover, I witnessed that the norm is to 
start the evening by consuming ecstasy, cocaine and then 
crystal meth. After about an hour, marijuana is smoked, 
followed by LSD. Ecstasy is then repeated to allow the high to 
continue for at least 2 days. GHB, Ketamine, heroin and 
Rohypnol are all used as what is called ``landing gear.'' The 
landing gear is consumed to enable the person to sleep after 
being unable to sleep because of the large amounts of 
amphetamines in their body. This is how the majority of the 
overdoses occur. In the party and drug scene, it is their 
belief that the authorities should not be called when overdoses 
occur. This is done for several reasons.
    They believe that the drug overdose can be slept off; they 
believe the victim will accumulate large medical bills and/or 
they will be arrested.
    The latest club remedy for a GHB overdose is to give the 
victim sugar. As extreme as this situation seems, it is very 
prevalent. These events usually have several thousand attendees 
and I would estimate that about 90 percent are using the drugs. 
By attending these events and observing such actions, I stay 
current on the drug trends.
    It is obvious that the problem is out of control. However, 
an opportunity has presented itself that would allow the 
mindset of the younger generation to be drawn away from massive 
drug consumption. My methods and techniques are very unique and 
effective. I am willing to share these methods with our 
government in an attempt to combat this drug epidemic.
    Again, thank you very much for allowing me to address the 
committee.
    [The prepared statement of Mr. Perkins follows:]
    [GRAPHIC] [TIFF OMITTED] T5953.051
    
    [GRAPHIC] [TIFF OMITTED] T5953.052
    
    Mr. Mica. Thank you for your testimony and I thank all of 
our witnesses today on this panel for participating.
    During the last several years we have tried to dramatically 
increase the amount of money that is available for treatment 
and for education. Today's testimony makes me a bit concerned 
that the money is not getting to some of the programs that may 
be most effective. The administration had requested and we 
funded also a $190 million ad campaign which I think they have 
done some test programming of and I think we are tentatively 
scheduled to get back the initial results of those tests. I 
heard, Ms. LaBarge, you mention those ads briefly but I would 
like to hear your comments on the inability to get dollars to 
these local programs. Is it that they are going somewhere else 
in the State or the Nation? And what the problem is there; and 
then second, what about the tremendous amount of money that has 
been put into these drug ads at the request of the 
administration.
    Ms. LaBarge. As far as the drug ads go, there has been a 
tremendous increase in the drug ad campaign, and right away the 
one that comes to mind is the little girl who is being asked 
all these things or telling what her mother has taught her and 
then the question is ``And what has your mother taught you 
about drugs?'' And she goes blank. The ads, I feel have been 
very, very effective. My only concern is sometimes these PSAs 
are shown at 3 a.m., and maybe the type of person who is up at 
3 viewing PSAs or programs is not the one that is really 
concerned about whether they talk to their kids about drugs or 
not--I do not know. But I think it is not just sufficient to 
have the PSAs. They are excellent, but we also have to have 
more cooperation with the media as to when the PSAs are shown.
    The second area that you addressed as far as the funding, 
Safe School funding has increased, but it is also, from what I 
understand, this year going to decrease, where they are cutting 
part of the Safe School funding to put it into other specific 
programs which address the middle school area, which is a very 
important area. However, from what I understand of the budget 
that is being proposed for the grants that are coming down in 
March, April, and June, that the funding will not be as much as 
it was this past year for Safe and Drug Free School funds. That 
is what I have been told, that the funding will be different 
and it will not be as strong. I am not sure whether that is the 
case, but I do believe it is.
    Also with the Safe and Drug Free School funding, I think it 
is crucial and I do believe Secretary Riley is very strongly in 
support of this, that funding be tied to principles of 
effectiveness and to research-based programs. Funding has gone 
into California and other places and has been used for a yo-yo, 
someone coming into the schools and showing how a yo-yo can 
keep you off of drugs or jump roping or many other areas that 
are not proven to be research-based. There may be funding out 
there that is not getting to the right places or not being 
funded for programs that are effective. I think that is 
something that really needs to happen. So as far as I know now, 
there is supposed to be a decrease coming down, I am not sure 
whether it is or not, but this is what we have been told for 
Safe School funding.
    Mr. Mica. Again, the totals are increasing. In education 
there is a 9-percent increase; in HHS treatment, there is 12 
percent; and I have got the record of levels of funding 1981 to 
1995, all of those years have been increasing. It was $2.6 
billion for treatment, I think we are going to be up in the 
$2.8 billion range. Most of the increases in most of the 
Federal programs have been limited pretty much to cost of 
living. There are exceptions to that 3 percent of whatever we 
have been running, in that range, sometimes 4 percent.
    I am a little bit disturbed to hear that we are 
appropriating more money and it is not getting to the programs 
that are effective. So we will--in fact, we will ask staff to 
conduct a little investigation of where that money is going.
    We also have the problem of block granting, or the question 
of block granting versus getting the money to specific 
programs. And the Congress has been trying to block grant and 
put not as many strings and get the money to the State. I think 
we need to look at the amount of dollars coming into Florida, 
and you are telling me also that you think California and some 
other areas have gotten more, is that what----
    Ms. LaBarge. No, what I am saying is I know that some 
programs, the Safe and Drug Free School funding has been 
criticized in some areas and in some papers, for example, out 
of the Los Angeles area, because they said they did not use the 
funds to do programs that were research-based and showed the 
principles of effectiveness.
    As far as funding coming down in block grant, I feel that 
Safe and Drug Free School funding needs to go directly to 
school districts and I think it needs to be tied directly to 
doing programs that affect drug education and drug prevention. 
There are many school districts that do not use their funds in 
the way that I believe it is intended for them to be used. And 
that certainly is the case in central Florida.
    Mr. Mica. Let me sample some of the other panelists. Mr. 
Perkins, what about the money we are spending on the drug ads 
and the increases in treatment and other areas? What would be 
your emphasis, how would you recommend we spend these dollars?
    Mr. Perkins. I would be more target-specific on the PSAs, 
you are missing a whole generation. There is a generation out 
there that is doing what is called poly drug abusing, all the 
drugs I listed, ecstasy, GHB, Ketamine, euphoria, meth and a 
variety of inhalants. They are doing them every single night in 
abundance.
    We need to address those issues and tell the kids and young 
adults that these drugs can kill you and will kill you. GHB, I 
was at a Rave event 2 weeks ago and after the event was over, I 
walked the parking lot--this was the next day, they last 20 
some odd hours--the next day, I walked the parking lot and was 
talking to a couple of individuals and I asked each one of them 
who does GHB and the majority of them said we do. And I started 
talking to them about it and I asked each one of them, I said 
what is in GHB and every single one of them said amino acids. 
And in 1990, they would have been correct. GHB was banned by 
the FDA in 1990. GHB that is being sold on our streets and in 
our clubs and in our Rave events, the active ingredients is 
engine degreaser, muriatic acid, vinegar and distilled water. I 
told those young guys and girls that and they were floored, 
they could not believe it.
    The misinformation that is out there is unbelievable. Like 
I referred to landing gear. Landing gear is what brings these 
young guys and girls down after they have been up for a couple 
of days because they cannot sleep. Come Sunday night, they have 
to sleep either to go to work or go to school the next day and 
they will be sold GHB, heroin and Ketamine to allow them to 
sleep. And what we are not telling these guys and women is 
that, look, you have all these amphetamines flowing through 
your body, when you dose that heroin the dealer is going to 
give you to make you sleep, you are not going to feel the 
results you desire, but in reality, your body is actually 
having the results. So they always redose and then you have 
your overdose.
    We need to get the message out to call the paramedics, call 
fire rescue, call the police officers, because it is the norm, 
I see it all the time, they leave them laying where they lie, 
put them in a car, put them in a bed and just let them alone. 
We need to start being very target-specific.
    I went to a Zen fest in Pasco County, there were 14,000 
people there, I was there. And I am here to tell you, 90 
percent of the people were on some type of hard drug. We had 35 
overdoses, all treated with advanced life support. So we are 
missing the boat on our target audience with PSAs.
    Mr. Mica. Ms. Trotter, you said that your goal in 1999 is 
to try to do more with the government entities, I guess 
particularly the public programs. How can we assist you--one of 
the problems that we have is that when you do a Federal program 
or participate in it, is all the reporting and the red tape and 
the other things. How can we assist you without getting in your 
program and running it and controlling it in an effective 
manner and not lack accountability?
    Ms. Trotter. The best way to assist a faith-based program 
that does not take funding and therefore sets up the 
accountability that way is to provide forums for speaking and 
platforms for speaking so young people like Mike can get up and 
say this is where I was, this is where I am today; as well as 
information. When I talked to our counselors just before coming 
here, I asked them what their biggest frustration was as 
counselors and they said there is not enough emphasis put on 
prevention, that most of it comes from the place of crime 
prevention. So we need both, we need laws set up that once the 
law is broken, there is severe penalty, but we need also the 
venue on the front side to educate families and to educate--and 
I am telling you when we had Scott come and talk to us, our 
families were blown away at what their children were involved 
in. They had no idea. And every one of those children, when 
Scott asked, responded that they knew exactly what Scott was 
talking about.
    So the best way to assist a program like ours would be to 
allow the platform; one for education, maybe the Sheriff's 
Department has someone who goes around and speaks to programs--
to educate on what is on the streets today. We do not want to 
wait for it to hit textbooks, then it is too late. And also to 
allow the platform for speaking so that we can give back to the 
community. That is really our heart in it, is to give back to 
our local community.
    Mr. Mica. Mr. Visser, you said that you have actually had 
to reduce I guess your beds or the size of your program. Where 
do you see the Federal and State money going? Is there some 
lack of attention to these basic programs that you are 
conducting? Do you see it going in other directions? How do 
we--what do we do and where are the funds most effectively used 
in your opinion?
    Mr. Visser. Well, I think what we see on a regular basis 
over a period of years is base funding, which, you know, we 
call our foundation of major State and--generally State 
funding--is it erodes each year. Since 1990, probably 6 out of 
the 8 years, we have gotten some kind of a percentage decrease 
in our core State funding. Now the funding that comes to us--
the Federal money that comes to us in the form of block grant 
is mixed in that formula somewhere too, so whatever you are 
sending us in block grant offset by State reductions has not 
kept up with maintaining the status quo. The other types of 
Federal money that are available to us of course are in grant 
programs and I guess, if anything there, my observation is it 
is splintered. You know, we have put together funding in 
programs from Departments of Community Affairs, Departments of 
Education, Departments of Children & Families, Departments of 
Juvenile Justice, Departments of Corrections, Governor's 
Office--all that gets very complicated--Medicaid. Each one has 
its own body of rules and regulations and reports and, as you 
can imagine, at the program level, it is complicated and 
expensive to do that, let alone at the administrative and 
governmental level that has to filter all that stuff down to 
us. And you know, in a way I suppose we could be thankful that 
some kind of prevention and treatment money has infiltrated 
that many departments of government but we have got to unify 
that somehow and coordinate that and begin to unify procedures.
    I do a background check on my employees and I have got to 
go look at what the funding source is in order to determine who 
to satisfy with the background check. And you know, we are all 
trying to protect the same children but they have different 
requirements, is just one small example.
    Mr. Mica. Sounds like administration and red tape is taking 
quite a bite out of it, not to mention the paperwork and all 
you must face. That may be an area that we need to pay a little 
bit more attention to as far as trying to streamline that 
process, although it is very difficult from our level. Any time 
you try any consolidation, you run into great opposition, any 
time you try to reduce the administration or levels in this 
programs that sometimes start in Washington, go to Atlanta 
regional office, Tallahassee and then down to the local level, 
you have all these layers of opposition to make any changes.
    Mr. Visser. I will say, Congressman, that the recent boost 
in Federal block grant funding, we received an additional $24 
or $28 million coming to Florida, does look like it is going to 
make a difference in the communities, and you must have 
surprised somebody with that one, they did not find a way to 
absorb it in some other pool before it got to us.
    Mr. Mica. It is very difficult from our standpoint, but we 
are trying to turn this around and also provide the flexibility 
so that these programs can operate locally and even participate 
with some of the private sector programs to give them whatever 
support we can because they also have been very effective.
    I have more than exceeded my time, let me now yield to my 
colleague, Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman, I would be happy to yield 
additional time.
    Mr. Mica. No, no, we are behind schedule.
    Mr. Ose. A couple of questions, if I may.
    Detective, what happens in a Rave? Just take me through----
    Mr. Perkins. At an event, sir?
    Mr. Ose. Yes.
    Mr. Perkins. OK, what a Rave is, a Rave is typically an all 
night dance party where people go to enjoy a variety of music--
house, break beat, ambient, jungle and cosmic.
    Mr. Ose. Ambient, jungle, costumes?
    Mr. Perkins. Cosmic.
    Mr. Ose. Speak English to me here.
    Mr. Perkins. It is just the various music that they go to 
listen to. At the event, deejays, they spin the music----
    Mr. Ose. The music type.
    Mr. Perkins. Yes, sir.
    Mr. Ose. OK.
    Mr. Perkins. And you have anywhere from 4 to 5, maybe even 
10,000 people at these events and when they are there, they do 
a variety of drugs at these events to enhance the Rave 
experience. And what has happened along the way is 
misinformation has guided the people who have just come up into 
this arena down the wrong path of poly drug abuse and dying and 
having overdoses by the dozens at every event.
    I was involved in this since 1991 and in 1991, that was not 
the case. And as you read in my statement, I mention it, there 
is an opportunity right now to sway the mindset of the younger 
generation, if it is done properly, away from this massive drug 
consumption, because right now there is a solid division in the 
community where people are getting sick and tired of the drug 
overdoses and other people who are still misinformed. So if you 
use the proper technique and vessels to get your message out 
there to the target audience, I think you would be very 
effective.
    Mr. Ose. So you are saying, back to Chairman Mica's 
question, that these PSAs are currently missing that part, I 
believe was your phrase.
    Mr. Perkins. It is not even coming close, sir.
    Mr. Ose. All right. Let me go on, if I may, Mr. Chairman.
    Ms. LaBarge, you referenced California receiving a 
substantial amount of the Drug Free and Safe School Act money. 
That was a $5.7 billion bill and I am here to confirm that much 
of the money spent in the LA School District was used, for 
instance, on trips to Disneyland, magicians coming to the high 
school, presentation by a member of the Globe Trotters and the 
like. And I have yet to divine the connection between what we 
are trying to accomplish and the expenditure of those funds.
    So if I could reference, for the staff's purpose, there was 
an article last spring in the LA Times about this particular 
expenditure pattern and I would be happy to have my people 
track it down and I am sure it is on the Internet.
    Ms. LaBarge. I can tell you that we have never spent funds 
for incidents like that. And this is what I am saying, that you 
have got to have accountability, because it is not fair to 
other school districts that are doing the job.
    Mr. Ose. Ms. Trotter, I have to say you stunned me, because 
in my experience in my district, I thought Families First was 
an organization based largely in the Central Valley with whom I 
have been working for a number of months and visiting with 
Evelyn Crall there, who runs Families First, her advice was 
that the connection between the various local government 
agencies such as CPS in one instance, juvenile authorities in 
another, the school districts, sheriffs, many times is lacking. 
I am wondering if that is the case. Have you experienced that 
and is there some means by which we can assist that collective 
effort actually being made a little bit more efficiently?
    Ms. Trotter. It is definitely our experience here, that 
there is such a separation between all organizations and if 
there could be a cooperative effort to bring them all together. 
And with Families First, one of the premises there is the 
separation just within the family. If it exists within the 
family, it definitely exists throughout our society, because 
the family is supposed to be the closest unit. We do need a 
coordinated effort. I am really not prepared to speak on that 
yet, I have some ideas that we run across with our families. 
One of the successes of House of Hope is that we mandate family 
participation, it is not optional. We never take what we 
consider throw-aways. That is a standard that we have within 
the course of the program, ending up with a child that we 
consider or term a throw-away because the family has just 
totally removed themselves from the program. That is definitely 
the exception and not the rule. So we work the families as hard 
as we do the residents in the program. They are in counseling 
as well.
    So coordinated efforts like that, what we would like to see 
is to be able to coordinate more with the school, the school 
programs in particular. Mike went and spoke to his local high 
school at risk class not long ago and as a result of that, 
eight of them requested from their probation officers time off 
of their home arrest to be able to come to one of our Last Wave 
events as an alternative to the Rave. So I think that there 
could be a coordination between programs.
    Mr. Ose. My major concern is the challenge that the 
confidentiality provisions impose as these agencies try to get 
together and work on a situation. So if you have thoughts about 
that, I would welcome having you call my office or give me your 
card.
    Ms. Trotter. That would be wonderful.
    Mr. Ose. Mr. Chairman, two more questions, if you will, 
please.
    I have read the material for the years that we have been 
dealing with this, particularly in the nineties, and I have 
tracked the nominal amount of money we have spent on treatment 
as opposed to interdiction and how that mix has changed over 
the years. And I have to share with you, and I may be 
completely off base and I am happy to be corrected, I have to 
share with you that as I see treatment dollars going up 
relative to the overall budget, I am also struck by the 
material here, for instance, for Florida, an increased usage, 
whereas we have a relative reduction in the amount used for 
interdiction, we have a relative increase in the amount used 
for treatment and we have a relative increase overall in the 
amount of usage. There's something disconnected there and I am 
trying to figure out what the proper balance is.
    Mr. Visser. Well, you know, I have people ask me that 
question a lot from the public, saying hey, we heard there was 
more money in treatment this year or funding has gone up, have 
you felt the difference. And my typical response to that is we 
are scratching such a small--reaching such a small tip of the 
iceberg that, you know, a pretty sizable increase is not 
something we would be able to identify a change in terms of our 
local program statistics in terms of whether it is reducing the 
demand or anything, and we read the same----
    Mr. Ose. It is empirical data is all that I am looking at.
    Mr. Visser. Right. We read the same things in the paper 
that you do and the same things in the research that, you know, 
experimentation usage has gone up. My believe with that is that 
some of that had to do with letting up on the prevention side 
and in my mind I attempted to differentiate some between 
treatment, prevention and enforcement as we do here on this 
panel.
    But, you know, there was a heightened level of spending as 
well as level of public interest in the late eighties with 
drugs being the problem and with prevention, and I think we 
were getting the message out at a number of levels. We had the 
``Just Say No'' campaign and a number of things. People get 
tired of hearing the same thing over and over and the more we 
talk about getting tough, the more I think we begin to redefine 
the problem somewhat. In our own experience of our own 
organization, the opportunities for growth in programs have not 
been so much in substance abuse as they have been in juvenile 
justice and other areas that are related to youth problems. And 
in a sense, in my mind, we have redefined the youth problem 
more in terms of a criminal justice, a youth criminal justice 
model than we have in substance abuse, and so in our own 
organization's mission we go into juvenile justice because we 
know that is where the drug abusers are.
    I am with the rest of them, one of the things that we hear 
over and over in our treatment programs from our kids is we 
need to get tougher on drug users and dealers and so we are 
getting tougher on them, but we need to make sure in the 
meantime that we are not losing the focus. We can't just lock 
them up, you have got to lock them up and treat them and have 
other sanctions.
    Mr. Ose. It is that balance, I am trying to find that 
point.
    Mr. Visser, I would like to come back privately and have 
you explain to me your phrase ``criminal models of addiction'' 
that you used earlier.
    My final question, Mr. Chairman, is: Detective, we have a 
serious Colombian heroin problem here in central Florida--this 
is probably too generic a question--but what is the attraction 
for the kids, is it price or is it purity or----
    Mr. Perkins. No, sir, not at all. The attraction for the 
young adults, like I just told you, is being able to bring you 
down after you have been up for several days, but what they do 
not realize is that even though they snorted, they no longer 
have to inject it, it is still a very addicting drug. You and I 
go out this evening and if we do ecstasy and meth and all that 
and we stay up a couple of days, we are given heroin to come 
down so we can go to school, but what we do not realize is that 
by ingesting that heroin in powder form to bring us down, that 
we are going to become addicted that way and now you progress 
up and start to shoot it. That is why you get all your young 
addicts.
    Also, it is very glamorous. I do not know why it is 
glamorous, but in the Rave community, in the younger 
communities, it is very glamorous, everybody is talking about 
how cool it is to do heroin. You know, they need to be told 
exactly how deadly heroin is. You have to realize that not many 
people die from heroin overdoses. For every one death, there 
are thousands of users. On Semoran Boulevard, every morning, 
you go out there, we used to go out there and make heroin 
arrests, dealers selling to dealers, dealers selling to users, 
right in front of the McDonald's where the little kids were 
playing with their moms. The heroin problem in Orlando is out 
of control.
    Mr. Ose. Do the people who are using the heroin understand 
the difference between heroin say from the late eighties versus 
the purity levels that they get now?
    Mr. Perkins. I do not know. I do not even think they care.
    Mr. Ose. They are just trying to get down so they can go to 
work or to school.
    Mr. Perkins. Yes, sir.
    Mr. Ose. Thank you.
    Mr. Visser. I will give you a reaction from a group of kids 
I talked to yesterday in my treatment program in preparation 
for this, about that fear factor. I said, you know, do you not 
see people overdosing, do you not see people withdrawing, do 
you not know that you cannot tell what you are buying. The 
answer to that is yes, on all fronts. They see that stuff 
happening, they are scared of it, but the fear of it is not 
enough to keep them from using it. They will buy garbage and 
drink it down by the cupfuls and not even know what the effect 
is going to be and they will see somebody next to them dropping 
out on an overdose and they believe that they will recover and 
wake up. The fear alone is not enough to keep them from doing 
it.
    Ms. LaBarge. If I may, I think it is also important to note 
that in the PSAs--and this is something that Scott alluded to 
earlier--if they see a heroin addict shooting up and then they 
smoke it and they snort it, then they cannot relate the danger. 
And that is one reason why the PSAs have got to be realistic.
    And if I may just make one comment. A little while ago, you 
asked a question and I had a senior moment--I do not know if 
you ever had a senior moment----
    Mr. Ose. I have junior moments. [Laughter.]
    Ms. LaBarge. When you asked the question about the Florida 
Safe--not Florida, but the Safe School money, the funding. The 
difference has been that about 2 years ago, they attached 
violence to it, so now we have to use the Safe School funds not 
only in the area of drug prevention, but it's Safe School and 
Violence--it is for drug and violence prevention. So the funds 
that we were using before which was totally used for drug 
prevention now are being divided so that the law states it's a 
Safe Drug Free School and Violence Prevention Act. And we have 
to do violence prevention which is getting more play than the 
drug prevention is, under that funding.
    Mr. Ose. Mr. Chairman, you have been very gracious to this 
freshman and I appreciate it.
    Mr. Mica. Well, thank you.
    I want to thank our panelists. We would love to spend much 
more time with each of these witnesses that we have had today. 
As you can tell, we have to do sort of a sampling, and it is 
unfortunate sometimes to the public that Federal hearings are 
conducted in this manner, but there are certain limits to the 
number of folks that we can have testify.
    I am going to excuse this panel, but you are welcome to 
stay seated and I am going to open up the hearing to our fourth 
panel, which is the public. And we have had some requests, we 
are going to try to accommodate them for individuals who would 
like to make some statement or comment.
    The first individual that we are aware of in the audience 
who wanted to speak is Tinker Cooper from Orlando. And Tinker 
had a son, 26 years of age, who died in a 1996 heroin case. If 
you could come up, identify yourself and you are recognized. 
And I also understand that you, with some other parents who 
have been so affected in your lives, have banded together and 
produced a video and also some other education and information 
resources that you wanted to make us aware of.
    So you are recognized for an introduction and comments and 
we will view that.

            STATEMENT OF TINKER COOPER, ORLANDO, FL

    Ms. Cooper. My name is Tinker Cooper. My son, Joe Stevens, 
died at 26 from a heroin overdose 3 years ago.
    A couple of months ago, Captain Ernie Scott from the Orange 
County Narcotics Division called and asked if I would help make 
a video on the drug overdoses in Orlando and the central 
Florida area. I took my friend along, Jackie Thompson, and we 
made this video.
    In working with the families, notifying the families of 
children in the video, Captain Scott realized what a mess 
everybody was, so together we started a support group for 
families, not just for mothers, but for families of overdose 
victims. It is not just a support group, we plan to go out and 
take this video everywhere we can get it--schools, private and 
public; rehabs; Narcotics Anonymous; Alcoholics Anonymous; 
doctors offices; businesses; anywhere we can get this thing in. 
We were interviewed Tuesday, Jackie and I, by CNN. They did not 
see the video because it had not been released yet.
    Hank Curtis from the Orlando Sentinel is starting to write 
articles about it. I understand Newsweek is supposed to get 
ahold of me. So we are starting to get the word out.
    Today, we have the video. It is an edited version because a 
few families have not given consent to having their children's 
pictures in it. So bear with us, there are a couple of little 
blips of black, one period is a pretty long black area where 
Jackie--there is a voice over of Jackie talking but there is no 
picture because we have not gotten permission from the family 
yet, but we felt this was a very important forum to present the 
video and get people's reaction. At the end of the video, there 
are some phone numbers for the Narcotics Division, Center for 
Drug Free Living, as well as the Speak Out Hotline, if you want 
to write those down. Any way to contact us, we also plan to get 
very involved politically, we are going to get our face in 
front of every politician we can possibly get to, to get 
something done about the drug problem here in central Florida.
    The video is called ``The Party is Over.'' We are not doing 
the whole thing, there are some pictures in the beginning, 
there is a speech by Kevin Beary that we are not using because 
we are short of time right now. So we are just starting with 
the meat of the thing, and hopefully you will play the entire 
thing.
    Thank you.
    Mr. Mica. Thank you, Ms. Cooper, and if the staff will go 
ahead and play the tape.
    [A videotape was shown.]
    Mr. Mica. I would like to thank Ms. Cooper for providing 
the committee with that tape. It certainly demonstrates the 
incredible personal tragedy that you have experienced, many 
others in our community, and the absolute horror of this whole 
drug epidemic we are seeing in our community. It also impresses 
upon me the enormity of the task that we have on our 
subcommittee in launching an effort, which we hope will be 
effective, so that we do not have to see instances like were so 
graphically displayed here today. So I appreciate what you have 
done in bringing this to the attention of our community and to 
others and also to this subcommittee of Congress.
    Ms. Cooper. I would just like to say one more thing about 
that. It is very graphic, these are actual crime scene photos 
and some of them are very bad. But just maybe if a kid is 
approached about drugs, these pictures will flash through his 
mind, whereas I do not think this is an egg--this is your brain 
on eggs, I do not think that is going to really stop them from 
doing drugs. But maybe these pictures will. This is death by 
drugs, it does not look like a good time.
    I know it is graphic, but we do want to get it in as many 
places as we can.
    Mr. Mica. I can assure you that whatever we can do that 
will be successful, we are going to look at what we have had 
successes with and what we are doing, what we have done in the 
past and what we can do in the future that will ensure success. 
And we thank you. We cannot do it all from the Federal level, 
it is going to take local heroes like you that have had 
unfortunately personal tragedies to help get this message to 
every corner of our communities across the Nation.
    So thank you.
    Did we have anyone else that wanted to make a public 
comment or presentation? Yes, come up.
    And if you would, for the record, if you could identify 
yourself with your name, where you are from, and if you 
represent an organization.

                  STATEMENT OF MACKENZIE PAUSE

    Ms. Pause. My name is Kenzie Pause and I am representing--
--
    Mr. Mica. Could you spell it, please?
    Ms. Pause. K-e-n-z-i-e P-a-u-s-e.
    I am representing the Tatje family, who lost their daughter 
Christina this past July.
    Mr. Mica. What was the name of the family?
    Ms. Pause. Tatje. The Sheriff spoke about them earlier.
    Mr. Mica. Right.
    Ms. Pause. The morning of July 31st I will never forget. I 
got a call from the Tatje family and Christina had overdosed on 
heroin and we had tried to help her for the past few months. I 
went to the family, she was a close friend of mine--I went to 
the family and tried to help her. We took her to Life Streams 
which is an organization in Lake County, which is actually the 
only one I know of. I used drugs for 4 years, part of that time 
with Christina. Fortunately I came out of it OK.
    When I came out of it, I tried to help Christina and she 
went to Life Streams and, you know, your House of Hope sounds 
great and I really hope it is helping a lot of people, but I 
think there needs to be more places like this. Life Streams did 
not help Christina actually. She went there, her parents 
believed me that she was using drugs out of hand. She went to 
this place, they gave her drug tests and she passed, and I know 
she was using cocaine and heroin. But drugs like that get out 
of your system pretty fast, I mean unless you are using it 
every day. I guess within 72 hours, they can be completely not 
detected by a test.
    Well, they counseled Christina and she told them--of 
course, a normal drug user would--told them she was not a user. 
They continued to release her and led the Tatje family to 
believe that Christina was OK.
    A few months later, she left her home to live with a 
boyfriend and friends that got her into heroin and then she 
overdosed with a mixture of a few drugs.
    Basically, like Lake County is one of the places that the 
Sheriff said needed to be added, and being from there and when 
I was in high school, I know from personal experience that 
small towns like are in Lake County are just amazing how many 
drugs you could find there. Most people would not think of 
that, they think cities, but I think because there is nothing 
to do there, these places are just as important as getting out 
the education and, you know, prevention there also. It is 
pretty easy to find anything you want. I could find ecstasy 
especially in high schools, you could find that probably more 
easily than anything, more than alcohol or marijuana, you could 
find heroin or ecstasy, which I think is pretty sad.
    And basically my first recollection of myself with drug 
education is the third grade, and in third grade, I was about 
an 8-year old or 9 year old, whatever, you are very easily 
influenced at that age and you will believe anything anyone 
tells you. And I remember an officer coming with the Just Say 
No program and of course all the kids then were like yeah, just 
say no. And they really did not tell you what drugs did to you, 
they kind of showed you a few drugs, said drugs are bad, do not 
do them, and that was it.
    As I got older, I do not remember, and there is not any 
other education that I received, and when I did ecstasy and I 
did other drugs, I did not know what it was doing to myself. I 
had no clue actually. And when I quit, I began reading stuff 
and finding out what these drugs did to me, and I had no clue. 
And I just knew then what I know now, you know, it could be so 
different.
    And I think there should also be--I want to start going to 
schools and speaking about what happened to me and I think 
there should be more things like this, maybe volunteers. If 
there is stuff out there, I have not seen anything that lets me 
know that there is something I can do like that. I am going to 
have to find that myself. I think if there was more 
advertisements to get people involved that, you know, want to 
get involved, because I want to get involved, and there is 
nothing I know of to do. So I have to look into it myself.
    People that have had first-hand experience, all the parents 
that shared their stories today and people like myself that 
have had--I know tons of people that know friends that this 
happened to and if they could get out there and speak their 
stories, I think that this is the best drug prevention 
anywhere. And the pictures, the more graphic, the more reality 
that is shown to children in middle school, high school age, I 
think the more that it will get out there to these kids.
    Mr. Mica. Well, I want to thank you for your testimony and 
for your recommendations. I think it gives us some good insight 
into what you faced and what is going on in our community and 
also what we need to do. So thank you so much for coming 
forward.
    Ms. Pause. Thank you.
    Mr. Mica. I am going to excuse my colleague, Mr. Ose, who 
has to go all the way to Sacramento, CA in a few minutes, catch 
a flight, and we will see you back in Washington soon.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Mica. But we will continue and it all becomes part of 
the record.
    Could you identify yourself, please?

                   STATEMENT OF COLLEEN COOK

    Ms. Cook. My name is Colleen Cook.
    Mr. Mica. Colleen Cook?
    Ms. Cook. Uh-huh.
    Basically a lot of what MacKenzie said is very true. A lot 
of the things that were said today about we need to help young 
people. But the big focus that you guys were saying is ``we,'' 
and when you said ``we,'' what you meant is adults, people in 
suits.
    But a lot of the people that were here earlier--I am 18 
years old, I lost a friend to heroin. That is not how it is 
supposed to be. You should focus ``we'' to be a larger group.
    The young people today, we can and we want to help 
ourselves. Nobody is going to reach out to the kids as much as 
people our own age. I mean when we are standing there in 
auditoriums with 300 kids, half of us are finishing our algebra 
homework for the next period, we are not going to listen to the 
police officers that are saying drugs are bad. They are going 
to listen to the stories brought from kids their age who have 
been in the circumstances and understand it.
    I think you should focus, like Mackenzie was saying, there 
is not a lot of programs really. I want to get out in the 
community, I have done a lot of public speaking in the past 
before this happened to me, and I am willing to tour to go to 
public schools like throughout the State. I am in college and I 
live in Tallahassee. I would love to go to the high schools and 
explain the story, what it is like to wake up and know your 
friend is dead, what it is like to wake up and have to call 
your other friends that morning and tell them their friend is 
dead, what it is like to call and hear their screams because 
they know their friend is dead. If kids heard that instead of 
drugs are bad, they would listen, they would not finish their 
algebra homework, they would not take a 10-minute nap during 
the lecture. There is not enough in schools.
    We all had the Say No to Drugs in fifth grade, that is all 
we had. Ninth grade, they kind of did a little thing there, but 
there is the little drug week where they pass out stickers that 
say do not do drugs and everyone wears them and the drug 
addicts cut the ``don't'' off and make ``do drugs,'' but that 
is not what we need. We do not need stickers, we need people 
coming to the schools speaking to the kids and we need people 
with stories and pasts similar to theirs.
    Mr. Mica. I want to thank you for coming forward and also 
sharing with us your experience. I think that some of what we 
have heard today looks like we need to increase some of the 
programs in the schools and do a little bit more effective job. 
And we appreciate your willingness to even participate, not 
only here but in the community.
    Ms. Cook. Thank you for listening.
    Mr. Mica. Thank you so much. They are going to take your 
names and addresses, those who are commenting.
    Yes, sir. Could you identify yourself?

                  STATEMENT OF KERRY WILENSKY

    Mr. Wilensky. My name is Kerry Wilensky, W-i-l-e-n-s-k-y. I 
am a treatment professional here in central Florida. I work for 
the State of Florida Department of Corrections in one of the 
local State jails doing treatment, substance abuse treatment 
for hard core criminal addicts.
    My background is fairly unique. I have a B.A. degree in 
psychology, I have a Masters of science degree in counseling 
and psychology, I have a Juris Doctorate degree in law. I am a 
certified addiction professional by the Certification Board of 
Addiction Professionals of Florida. I am also certified in 
clinical hypnosis.
    But in addition, I personally am a survivor. I had a 20-
year history of addiction, and also had 5 years of heroin 
addiction, which resulted indirectly in 2\1/2\ years in the 
Federal penitentiary. So I think that personally and 
professionally I am qualified at least to address some of these 
issues.
    My feeling, because I work in this particular area, is that 
the focus that we have done has been a little backward. My 
recollection was that the budget, the Federal budget, for this 
year was $15 billion. Of that $10 billion was for the supply, 
interdiction and only $5 billion was from the demand side. I 
will tell you, Congressman, that you cannot prevent drugs from 
reaching those people. In this country today, the largest per 
capita drugs are in the penitentiaries. And if you cannot keep 
them out of an environment like that, I do not think you can 
keep them out of the environment in our streets.
    But I will tell you if we can focus on the demand side, how 
long would you say Toyota would continue to manufacture cars 
and ship them to this country if nobody purchased them? They 
would find another market for them. And as Governor Martinez 
said earlier, these international cartels are so well funded 
and so good that they will find a market for them. Let them 
find another market other than our country.
    The other issue I wanted to raise is I have a 19 year old 
stepson, who at 10 last night, I picked up from the county jail 
here in Orlando, who was incarcerated for charges as a result 
of drug use. I have very good insurance working for the State 
of Florida, yet I could not afford, and if I could afford, I 
probably could not find, treatment for that boy. However, once 
he becomes involved in the criminal justice system, there is 
plenty of treatment for him. And I think that is what Mr. 
Visser was referring to about his criminal-based treatment.
    I think that it is a sad state when we have to have our 
young people get involved in the criminal justice system just 
to get some treatment or some help. My feeling is that if the 
Federal Government, with all of the money that they have 
appropriated now, would kind of look to put money into 
treatment and prevention rather than waiting for the criminal 
justice system to get involved, it would certainly benefit us 
individually.
    As a taxpayer, I find it a little disheartening that we 
lock somebody up for a year and it costs anywhere from $25,000 
to $40,000 a year, depending on the State, to keep an 
individual incarcerated. Yet it is only $12,000 a year to put 
them in residential treatment. It certainly is much more cost-
effective.
    In addition, recently the Department of Justice has 
published a 10-year outcome study of the drug courts that have 
been involved in this country. And my understanding, as I 
recall that particular publication, was that they have been 80 
percent effective by getting these people before they get 
involved in the criminal-justice system.
    So in my opinion, if we, as citizens, could focus on this 
rather than having to stand up and worry about bringing the 
drugs in, it would certainly be a lot more effective.
    Last, I have an article here that I had published in the 
Orlando Sentinel on November 9 in the ``My Word'' column, which 
made the analogy of heroin as a serial killer. And I would like 
very much if this could be made a part of the permanent record.
    Mr. Mica. Without objection, so ordered. Thank you.
    Mr. Wilensky. Thank you very much. And I do appreciate the 
opportunity to address you.
    Mr. Mica. Thank you. Just a comment. The percentage of 
money spent on international programs, source country; for 
example, the 1998 enacted was 3 percent of the entire budget. 
It had been--that is 1998 enacted, 3 percent of the entire 
budget. Back in 1991 when he was Drug Czar, it was 6 percent, 
so it has been cut by 50 percent. And treatment and demand 
reduction is now 34 percent; in 1991, it was the same 34 
percent. And law enforcement is 53 percent and then 
interdiction is 10 percent. So those are the figures according 
to the National Drug Office. Thank you, sir.
    Mr. Wilensky. Thank you, sir.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5953.053
    
    [GRAPHIC] [TIFF OMITTED] T5953.054
    
    Mr. Mica. Yes, ma'am, if you could please identify 
yourself.

                STATEMENT OF CHRISTINA MONTAIUTI

    Ms. Montaiuti. My name is Christina Montaiuti, spelled M-o-
n-t-a-i-u-t-i, and I serve as the clinical director of a 
treatment program here in Orlando that is called SAFE, 
Substance Abuse Family Education.
    I would like to just present a couple of scenarios to this 
panel. One is of a young woman who recently died. She was a 
client of ours up until 2 years ago. She got caught after she 
got out with 250 pills of Tylenol II, and never got--got 
arrested for a few days, got off, never got charged because of 
some powerful attorneys. Because of that, she went back to the 
streets right away, started dancing at Rachel's and died. My 
question about that was how could a child--well, she was not a 
child then--how could anybody get off after having done such a 
thing, without any legal consequences.
    And to that extent, working with adolescents all the time, 
I would like to ask a question. How come so many of the kids 
that we work with get off so easily and do not even get any 
consequences for their behavior once they get caught with 
paraphernalia?
    Another small scenario that I wanted to present was that 
one of our counselors and myself served as volunteers at a 
local middle school and led a group for the school of young 
boys. We found out that several of these boys were already 
involved in heavy drug use, but because of confidentiality, we 
could not tell their parents. So really we know where these 
kids are headed, but we cannot address the issue with the 
parents.
    I just wanted to make a comment on the advertising and what 
our kids say about it. They come in and I think the 
advertising, as I have seen it, against drug use, is effective 
for people that do not use drugs and will not, because it is 
effective with me, I remember it. But most of the kids who are 
going to use drugs are not going to look at something so 
unsophisticated as an egg on a frying pan. They want to look at 
something that will challenge them like the video games that 
they use all the time, something that is more stimulating to 
them and that would actually take their interest and hold it 
for awhile.
    The last thing I wanted to say was that we offer, like the 
House of Hope, some public community education training and 
they are free. And they are actually some of the testimonies of 
the kids who have commenced the program, are still in the 
program or graduated from the program. And a lot of times, we 
find resistance in high schools because they say they are drug 
free high schools and they might be in a very wealthy area and 
so they have a hard time admitting that drugs might be a 
problem. We are not able to offer the service.
    So those are the scenarios that I do not really have any 
answers.
    The last thing I wanted to do was introduce a couple of the 
parents of the clients that we have in treatment. I am not sure 
if one or both wanted to share with you just a minute. Thank 
you for your time.
    Mr. Mica. Thank you. We would welcome their comments. If 
you would identify yourself, please.

                   STATEMENT OF SANDRA MONROE

    Ms. Monroe. My name is Sandra Monroe and I am the parent of 
a teenage drug addict.
    Mr. Mica. You will have to speak up as close as possible.
    Ms. Monroe. OK. I am the mother of a teenage drug addict. 
We are currently in this program called SAFE, and if it was not 
for SAFE, my son would be dead, I would be sitting in the same 
chair that the lady was there just before, who did the video.
    I would just like to share with you, as Ms. Montaiuti did, 
the resistance, because my son and I now are far enough in the 
program that we can go out and talk to the community, and we do 
find resistance. The schools, they do not want to hear it.
    I would love to see that it is mandated in these middle 
schools that not just the kids be talked to, the parents, 
because just like Detective Perkins said, if I had known--I had 
no clue what GHB was and my son did heroin. He has done every 
drug that you have listed, he has been at the Raves, started at 
16, 14. Had I been educated, I cannot say I could have stopped 
it, but I certainly would have been helped.
    And every time my child got into trouble, he was turned 
right back to me and said you deal with it, it is a parenting 
problem. Yeah, it is, and I made mistakes along the way, but 
there is nobody out there to help me and educate me. And the 
parents out here need help. These drugs are killing our kids. 
Let us talk to the parents too, not just the kids. I want my 
son to give back to the community and talk to the kids, but I 
also want to give back to the parents who have no clue what is 
going on. And we need your help there, we need you to tell the 
schools to let us in and have the parents there.
    Thank you.
    Mr. Mica. Thank you for your comments. I am glad that has 
been raised. I think the last time we came into the community, 
we heard the same thing and now maybe we can, at least in my 
position now, I will try to weigh in and see if we cannot get 
some of those programs into the schools and started a little 
bit better organized and on a more frequent basis.
    Yes, ma'am. Would you identify yourself, please?

                 STATEMENT OF JEANETTE BABETTS

    Ms. Babetts. Hi, my name is Jeanette Babetts. I am also a 
parent of a child in the SAFE program. My daughter was put into 
treatment when she was 13, she is 14 now.
    I would just like to reiterate what Sandra Monroe said 
about making it mandatory in the schools that parents know 
about the drugs. I was naive and as a parent, I did not want to 
admit my child could be doing drugs, just based on her behavior 
alone. So again, I would just like to reiterate what Sandra 
Monroe said, and thank you for your time.
    Mr. Mica. Thank you for your comments.

                   STATEMENT OF TONY GOODWIN

    Ms. Goodwin. Congressman Mica, I have met you before, my 
name is Tony Goodwin. This is Jonathan Goodwin. I spoke to you 
at another meeting.
    Mr. Mica. Yes, and can you also repeat your name?
    Ms. Goodwin. Tony Goodwin and this is Jonathan Goodwin.
    He died on June 30, 1996 of a heroin and Rohypnol overdose. 
I spoke to you before, you shook my hand, looked me in the 
eyes, said you were sorry for my loss and you would try and do 
something.
    It has been 2 years, I have been away from the central 
Florida area and I am back now. And I have to admit to you that 
nothing has changed. The only thing that has happened is more 
people have died and become addicted. And as a human being and 
a parent, you know, something else has to be done. It is really 
sad to think that these parents have to let pictures of their 
dead children go on the news, and that is the only thing that 
is probably going to reach these kids. It has come to that, it 
has come to showing dead bodies, it is coming to tell the 
stories of how my son was with his friends, they gave him the 
heroin and they sat there and they watched him and they figured 
after 4 hours, he was not getting back up, and they were right. 
He is still dead and things are still going on, more people are 
still dying.
    And I really feel sorry about that whole thing, and I want 
to do what I can but it is going to take a whole community.
    Another thing, when you have a meeting like this, 
Congressman Mica, I think you need to have it at night so that 
parents can bring their kids in. This should not be empty, this 
should be full of people because there are a lot of people 
hurting. And what is wrong with that? And I will put it to you 
the same way my son would put it to me--what is up with that? 
What is going on and why has this not stopped.
    And that is really all I have to say, and I pray for all 
these kids out there and all the parents and just God bless us 
all because we are in a world of hurt right now as a Nation.
    Thank you.
    [Applause.]
    Mr. Mica. Thank you. I will say just for the record the 
reason I am here and the reason you came back is because 
neither of us are satisfied with what has been done. The 
Speaker asked me to take on this assignment. For 6 years I 
wanted to be chairman of another subcommittee, but I felt that 
this was absolutely the most important thing I could do. I put 
my wishes and my past work on transportation aside and chose to 
accept the challenge he gave me. We have done some things, but 
as I said in my opening statement, not enough. And I hope as 
chairman--this is my first week chairing this subcommittee--
that we can raise this not only to a community level, but to a 
national level. So that is why I am back here with you today, 
because I am not satisfied with where we have been, what we 
have done and where I saw we were headed. So we will be in this 
together, and I thank you for coming back and that may be what 
it is going to take, every one of us. Thank you.
    Yes, sir, you are recognized.

                  STATEMENT OF VITO PISCHETOLA

    Mr. Pischetola. My name is Vito, V-i-t-o, last name is 
Pischetola, P-i-s-c-h-e-t-o-l-a.
    Mr. Mica. Thank you, sir.
    Mr. Pischetola. Thank you.
    I would like to say that I am here because I am a 
recovering alcoholic and addict also. And I work as a 
paraprofessional in the field and I work for a company called 
SAFE.
    I suffer from the most deadly self-inflicting disease there 
is short of suicide and I would like to know how anybody can 
put a price on someone else's life when the money is there.
    And another statement I want to make is it takes people a 
long time to make that transitional change. I have been using 
or abusing drugs for 20 years. I have seen people get court 
ordered to treatment for 30 days. Thirty days does not do 
nothing for nobody but clear the fog, if possible. I just want 
to know how they can just stipulate 30 days, 90 days, when it 
takes a lot longer, and it is a life long battle.
    I am a survivor, but I keep on fighting every day.
    Thank you for hearing me.
    Mr. Mica. Thank you, sir, for your comments.
    Yes, sir--ma'am, go right ahead.

                    STATEMENT OF DAVID DYER

    Mr. Dyer. My name is David Dyer, from here in Orlando and I 
am just here because I am an interested citizen. Let me give 
this to you.
    Mr. Mica. Is this a formal statement?
    Mr. Dyer. No, that is not a formal statement, it is 
something I happened to have in my pocket and I heard you 
discussing with the former Governor earlier, Mayor Giuliani's 
stance on the methadone programs and that just happens to be an 
argument or an article concerning the fact that Mayor Giuliani 
has just reversed his stance on methadone treatment centers in 
New York City.
    I happen to be a former investigator for the Texas 
Department of Health. I spent 3 years inspecting methadone 
treatment programs in the mid and late seventies, all in the 
State of Texas under contract from FDA for compliance with 
Federal regs. And I can tell you first hand that what these 
people are doing is the right way to approach this drug 
problem, which is to put 90 cents into prevention and 10 cents 
into law enforcement, and this problem, through education and 
treatment will go away much quicker. I think these people 
probably agree with me.
    The answer is not going from 55,000 people in prison to 
455,000 people in the last 10 years; the answer is prevention, 
education and in addition, doing away with some of the hysteria 
surrounding this problem. It is just like this sign, 99.9 
percent of drugs save lives. The discussion here is about 1 
percent or less of the drugs out there that are being abused 
and used irresponsibly by a small percentage of people. They 
need to be educated.
    Written on that piece of paper that I would recommend to 
you and to the reporters here in the audience as they begin to 
write their articles is a book called ``Drug Crazy'' by a 
fellow named Mike Gray. Mike Gray is the author of ``The China 
Syndrome'' that came out and was a movie just before the Three 
Mile Island incident. Mike Gray has done 6 or 7 years worth of 
research into the drug history in the United States and the 
history of the drug war and it would be well worth reading by 
anyone who is interested in a rational explanation of this 
problem, and some of the potential solutions in light of the 
fact that what we have been doing for the last 25 years 
apparently is not working.
    Thank you very much.
    Mr. Mica. Thank you. Sir, you referred to this Giuliani 
article here, ``Reverses Himself on Methadone,'' did you want 
that in the record?
    Mr. Dyer. It should be in the record.
    Mr. Mica. OK, without objection, so ordered. Incidentally 
too, I will be meeting with Mayor Giuliani next week and he 
will also be testifying before our subcommittee on the week of 
the 21st I think of February. So we are going to look at what 
he has done, we are going to look at all these programs and 
assess them, evaluate them and try to adopt what is effective 
and whatever it takes to solve this problem.
    So I thank you, sir, for your time.
    Mr. Dyer. If you go back and take a look at the history of 
the approach to drugs taken by Nixon in the first 3 or 4 years 
of the seventies when the methadone treatment programs first 
became popular and were being implemented and look at the 
progress that is being made until the point in time that Nixon 
did not need that as a political issue any longer and reversed 
himself and started interdiction, and compare these two 
periods, I think you will be quite surprised at what you will 
find.
    Mr. Mica. Thank you for your comments, sir.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T5953.055
    
    Mr. Mica. We have a lady here that wanted to comment.

                  STATEMENT OF SHIRLEY ZAGOREC

    Ms. Zagorec. My name is Shirley Zagorec, spelled Z-a-g-o-r-
e-c. I came basically because of the article that was written 
in the Orlando Sentinel. I am a citizen, do not represent 
anyone but myself, I came because I care.
    I do not think it is right to judge everybody, and 
everybody is like back and forth. I sat back there--I am a free 
lance writer, I do novels, I do not do political writing, so my 
heart is pounding 1,000 miles an hour, but I sat back and 
listened because this is my first public hearing and I wanted 
to give--you know, I care.
    My question as I sat down and wrote a lot of things was I 
hear everybody, I hear the statements, analyze who is better 
than the others, I hear a lot of facts, you know, numbers do 
not mean anything to me--give me the price of a car, tell me 
what my payment is. But people like, you know, Mr. Perkins, you 
know, those things touch my heart more because those people are 
out in society really helping. I think his statement was 
compassion, you know. I am a single person--I am not married, 
let me put it that way, I am 39 years old. These young kids 
come up here and just pour their heart out, you know. I have 
never done drugs in my life, never had a reason to, never saw 
it, came from a small town. My parents were great. So did I 
miss that scene? Yes. Was it an individual choice? Yes. I did 
not need it. You know, life can be up and down, there are a lot 
of problems. You know, the context of not Christian or 
whatever, I do think faith is something that we really need to 
work on. Education or whatever, I think those are essential 
things.
    You know, I do not know if everybody is familiar with 
Danielle Steele, she is a novel writer, but her--she just put a 
book out, her son, 17 years old died, he was a manic 
depressive. You know, she raised nine kids during this process 
and the whole thing was she knew there was something wrong, the 
doctors said no, it is just growing up, it is part of being a 
child. For years, this went on and on and on. You know, finally 
there was a lady who cared--key point. I think when we start 
caring, we start wanting to do something.
    I basically came here thinking OK, I am listening, now what 
can I do as a citizen. I have never done it, I cannot 
experience it, you know. This detail was very graphic and 
understandable, it helps me understand. In 1981, I was 20, 
people said they were smoking roaches, I thought ``those bugs 
on the ground?'' Oh, my God. Yes, I know--I am still naive 
about drugs. I have to read about it to understand it. You 
know, I have never done it.
    Some of the things that I saw, you know, that was talked 
about, I do not think there is a right or wrong--well, yes, 
there is a right and wrong, but I do not think that one person 
is better than another, I think the money does need to go 
somewhere, I understand that. I heard a lot about money, money, 
money, but you know what, the bottom line is money does not buy 
the kids life. You cannot buy happiness.
    I read recently, it was very interesting, we prepare for 
war all the time, we take money and build weapons, we prepare 
for war on a daily basis. But how do we prepare for peace? You 
know, that is a different concept. What would we do.
    So how can we help these kids? How can I help these kids, 
what can I do as a citizen, you know. I do a lot of volunteer 
work, I see the drugs, I see a lot of invalids, people who are 
left at home--that is awful, you know, devastating. The world 
needs help from a lot of volunteers who care and I think that 
is where it comes from, is my heart.
    So am I stronger at some point like these people that say 
compassion? Yes, I believe that too. I do not think money is 
going to solve all the problems, I think it will help. You 
know, I think the people who are really sincere, it comes from 
the heart.
    That is just a personal point of view, you know. I was 
encouraged by this. It was interesting and I learned a lot from 
it. I would encourage more people to come out and listen; if 
they care, that is what they will do. It is just that if you 
are not immediately involved in it, you do not do it. If you 
have never done drugs, you do not understand. I came because I 
do care and I came asking what can we do.
    Mr. Mica. Thank you and maybe you have gained a little bit 
of insight as to what may be done in our community and across 
the country.
    Sir, you wanted to testify?

                   STATEMENT OF JOHN PERKINS

    Mr. Perkins. Mr. Chairman, my name is John Perkins.
    Mr. Mica. Perkins?
    Mr. Perkins. Yes, sir.
    Mr. Mica. Thank you.
    Mr. Perkins. Mr. Chairman, I am a retired police captain 
from Tampa, I am also an educator and I know both sides of the 
issue----
    [Interruption from public address system.]
    Mr. Mica. I am sorry, would you start over?
    Mr. Perkins. My name is John Perkins, I am a retired police 
captain from Tampa and I am also an educator, head of the--
Director of the Police Program at Brevard Community College. So 
I have covered both aspects of this.
    There is a saying going around that if you arrest a 
murderer, you take a murderer off the streets. If you arrest a 
drug dealer, you create a job opening. And there are dozens and 
dozens of drug dealers out there waiting for that corner to 
open up. So there certainly needs to be a lot of emphasis on 
drug enforcement.
    But I really think that if you harken back to what most of 
the parents have said here today, it is education, the parents 
did not know. They do not know what is out there, they do not 
know what their children are exposed to. There is emphasis 
today on the question as to are the PSAs working. Well, if you 
will notice, most of the PSAs, the message is parents, talk to 
your children about drugs. But what these parents are telling 
you here today, Congressman, is they do not know what to say to 
their kids about drugs. There is no education out there for the 
parents to intelligently discuss the possibilities of what 
could happen to them if they use these drugs.
    As my son--and that is my son up there--as he said earlier, 
there are people out there that will talk intelligently to 
these children about drugs and that is the drug users and that 
is the drug dealers. And I think if you put the emphasis on 
education and treatment, I think that way you will eliminate 
the job possibilities of the drug dealers.
    Thank you.
    Mr. Mica. Thank you, sir, we appreciate your comments.
    We have another lady here. If you could, ma'am, identify 
yourself for the record. Thank you.

                   STATEMENT OF DEBBIE SMITH

    Ms. Smith. My name is Debbie Smith.
    Mr. Mica. Did you say Debbie Smith?
    Ms. Smith. Yes.
    Mr. Mica. OK, thank you. Just take your time and tell us 
what you would like.
    Ms. Smith. I am sorry, my daughter died.
    Mr. Mica. You had a daughter that died from a drug 
overdose?
    Ms. Smith. Two months ago.
    Mr. Mica. Two months ago.
    Ms. Smith. I just happened to see the announcement on 
Channel 2 that this meeting would be today and I told my 
family, I have got to come. I brought my sister and I am 
sitting back here trying to get my nerve together.
    Mr. Mica. Well, we appreciate your coming out and I know 
how difficult it must be for you.
    Where are you, what city, ma'am?
    Ms. Smith. I live at Ormond Beach.
    Mr. Mica. Ormond Beach, and you took the time to come over, 
which we appreciate that. We have heard today that almost every 
community in central Florida has lost children, young people 
and adults to heroin, to cocaine, to other drug abuse. We know 
how difficult it must be for you and appreciate your coming 
forward.
    Do you have any specific recommendations?
    Ms. Smith. Yes, I do. My daughter, Jacqueline Smith was 24 
years old, she was a nurse, she had a house, she had a job. She 
fell in with the wrong crowd at a depressed time when her 
boyfriend left her and within a year she was dead. She lost her 
house, she lost her car, she lost everything.
    One thing you ought to talk about today and I have not 
heard, she was 24, she had no insurance. I could not get her 
service anywhere, I took her to the State, they sent me from 
department to department. I went all over the Justice Center in 
Daytona Beach trying to get that girl some kind of service, 
they said I am sorry, you are too old, you do not qualify, I am 
sorry, you do not have a child. If you were pregnant or if you 
had a child, we could give you anything you need. She said do I 
need to get pregnant? They said we would prefer you do not. I 
taught that kid all of her life, I said you act responsibly 
about your body and what you do with it.
    She went--finally we got her into a treatment center, they 
would not give her mental health counseling because the two of 
them are not combined together--they should be. I got her to a 
counseling program, they would not treat her, they would not 
talk to her on the phone, they sent me back and forth for 
months before I could get something coordinated for this kid.
    She had a bad moment, she fell off the wagon, she felt she 
could not recover herself and she was dead within a week. She 
had been coming back, she had been looking forward to the 
future and just like was in the video--it is not too graphic, 
we look at Terminator II all the time, movies are much worse 
than that. I have a shirt in my laundry room that has got blood 
on it. I never understood what the blood was from, now I know 
from the video what exactly happened to her. I have not gotten 
my crime scene photos back yet and she has been dead for 
months. I cannot get a report from MV, I cannot get a report 
from the Sheriff, nobody is going to help me do anything, I am 
caught in the middle. I have not found anybody in Volusia 
County that can help me as a parent, as a victim or--what am I? 
They came to my door and said I am sorry, your daughter is 
dead, goodbye. They can give you a counselor or a--no, not a 
counselor, a preacher, we will be glad to help you. Well, I 
have not heard from anybody and it is 2 months, my whole 
family, we have been trying to come to grips with the whole 
thing.
    To me, where we are is insane. I keep calling these people 
saying why am I caught between you two people, can you not tell 
me anything?\ There is nobody, to me, that is helping me 
coordinate what has happened to my daughter. They know the 
people, they know the situation--it is what was in that video. 
And she was never raised that way, to be like that. She fell in 
with a group that let her lay there for multiple hours, play 
the situation out. And they cannot decide what to put on the 
death certificate, they do not know if it was a suicide or it 
was an actual overdose. I am caught between the two. That is a 
fun thing to live with through with the holidays.
    So all I would like to say is I would like somebody in our 
neck of the woods, even in the State, to coordinate the mental 
health and the drug rehab thing and get it so we can have 
access to it over there.
    Thank you.
    Mr. Mica. I thank you for coming out and I know how 
difficult this has been for you personally. I think you have 
also commented here today on the need for better coordination 
and we will look at that. We heard the same thing from some of 
the panelists, so we--our job is to look at what is being done, 
what is not being done and then see if we can improve the 
situation. But there is no question the incredible impact this 
scourge has had on so many families and parents and loved ones 
in our community.
    I do not see any further requests for testimony at this 
time.
    I would like to take this opportunity to thank each and 
every one of you who has remained through the full hearing and 
who have participated in the hearing, whether in the audience 
or coming forward today to provide testimony. It is my hope 
that we can turn this whole situation around. We have seen in 
our community the ravages of illegal narcotics and drug abuse 
and the need for better programs, better emphasis, better 
utilization of our resources and also making this whole 
situation public and that is part of the reason for the hearing 
and one of the reasons that I wanted to start here in our own 
community before we get wound up with the hearings in 
Washington and across the country.
    So again, I thank those who participated, our staff from 
Washington and others who have been with us.
    There being no further business to come before the 
subcommittee, I hereby adjourn this meeting.
    [Whereupon, at 2:53 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
